u.s. Department of Justice
Office of the InspectorGeneral
     A REVIEW     OF THE FBI'S RESPONSE TO JOHN ROBERTS'
                    STATEMENTS ON 60 MINUTES

I.    INTRODUCTION
       This report describesthe Office of the Inspector General's (OIG)
investigation of allegations that officials in the Federal Bureau of Investigation
(FBI) retaliated against John Roberts, a Unit Chief in the FBI's Office of
Professional Responsibility (OPR), for commentshe made on the television
program 60 Minutes. On the October 27, 2002, 60 Minutes broadcast,Roberts
made statementscritical of the FBI's investigation and adjudication of employee
misconduct, suggestingthat there was a continuing double standard of discipline in
the FBI. After the broadcast,allegations arose that senior FBI officials, including
Robert Jordan, the newly appointed Assistant Director (AD) in charge of FBI OPR,
engagedin a course of retaliatory conduct againstRoberts. Allegedly, Jordan
angrily confronted Roberts and chastisedhim for his statementson 60 Minutes,
referred Roberts to the OIG for investigation becauseof his appearanceon
60 Minutes, criticized Roberts during an FBI OPR all-employees meeting at which
Roberts was not present, and selectedanother FBI OPR Unit Chief who had less
experience than Roberts to be the FBI OPR Acting Deputy Assistant Director
(DAD). Jordan and other FBI officials denied that they engagedin any retaliatory
actions againstRoberts for his statementson 60 Minutes.
       On November 8, 2002, SenatorsPatrick Leahy and Charles Grassleywrote
to FBI Director Robert Mueller expressingtheir concern about the alleged
retaliation againstRoberts and seekingthe FBI's responseto a series of questions
about the matter. (See Attachment 1.) In response,the FBI referred the allegations
to the OIG and requestedan investigation of them. We agreedto investigate the
matter.
       During the course of our investigation, the OIG interviewed more than 20
FBI employees, including Roberts, his wife Brenda Roberts (who works as
Jordan's secretaryin FBI OPR), Jordan, FBI Director Mueller, FBI Deputy
Director Bruce Gebhardt, and FBI Executive Assistant Director (EAD) for
Administration W. Wilson Lowery. The OIG also interviewed many of the FBI
OPR Unit Chiefs, special agents,and administrative employeeswho were present
at the FBI OPR all-employees meeting. In addition, we obtained FBI documents
relating to the allegations of retaliation and the 60 Minutes broadcast, including
e-mails and notes taken during the all-employees meeting.
      This report describesthe results of our investigation. The report first
provides a timeline of relevant events. It then discussesthe background to the
allegations, including the structure of FBI OPR, what was aired on the 60 Minutes
program, and the reaction by FBI employees. The report then describesin detail
severalmeetings among FBI managersand two meetings between Roberts and
Jordan after the broadcast. It also describeswhat was said at the FBI OPR all-
employees meeting on November 6. The report next examinesthe decision by
Jordan to appoint an Acting DAD ofOPR. The final section of the report provides
our analysis and conclusions regarding the allegations.




                                        2
                                   TIMELINE       OF KEY EVENTS

                                                2001
July 18, 2001       Roberts testifies before Congress about a double standard
                      of discipline in the FBI


                                                2002
September 2, 2002   Jordan becomesAssistant Director in charge of OPR
September 25        Roberts' attorney requests permission for Roberts to be
                      interviewed by 60 Minutes
October 8           FBI gives Roberts permission to be interviewed by 60 Minutes, with
                      certain restrictions
                    Roberts is interviewed by 60 Minutes
October27           60 Minutesbroadcast
October28           Jordan meets with FBI Director Mueller about 60 Minutes broadcast
October 29          Jordan and Lowery meet to discuss letter referring Roberts'
                      allegations to the Inspector General
                    Lowery, Gebhardt, and Mueller meet to discuss referral letter
                    Jordan and Lowery meet with Roberts in Lowery's office

October 30          Jordan gives Roberts a copy of the referral letter to the
                      Inspector General

November1           FBI sends letter to 60 Minutes responding to the broadcast; FBI
                      posts letter on FBI Intranet

November 5          Jordan changes OPR all-employees meeting from November 7 to
                      November 6

November6           Roberts is out of the office on sick leave
                    In the morning, OPR Unit Chiefs' meeting is held
                    In the afternoon, OPR all-employees meeting is held
                    FBI posts position for OPR Deputy Assistant Director

November 8          Senators Leahy and Grassley write to FBI Director Mueller expressing
                      concern about treatment of Roberts

November 12         Jordan appoints OPR Unit Chief Brian Fortin to serve as OPR
                      Acting Deputy Assistant Director




                                                  3
II. BACKGROUND
     A     OPR's Structure
       FBI OPR investigates and adjudicatesallegations of misconduct against FBI
employees. OPR is composed of six units: two Internal Investigative Units, two
Adjudication Units, one Administrative Unit, and one Law Enforcement Ethics
Unit (LEEU). The two Internal Investigative Units review allegations of
misconduct, investigate and determine the relevant facts, and send the results of the
investigations to the two Adjudication Units, which evaluate the evidence and
recommend appropriate discipline. The recommendeddiscipline has to be
approved by the FBI OPR Assistant Director. The two Internal Investigative Units
have approximately 20 employees in total, and the two Adjudication Units have
approximately 20 employees in total.
      The FBI OPR Administrative Unit provides administrative support to FBI
OPR and consists of approximately 14 employees. The FBI OPR LEEU, located at
the FBI's training academyin Quantico, Virginia, was establishedin 1995. Its
mission is to teach ethics to FBI personneland monitor the overall integrity of the
FBI's components. At the time of the 60 Minutes broadcast,the LEEU had four
employees.
      A Unit Chief heads each OPR unit. All Unit Chiefs report to Jordan, the
Assistant Director in charge of OPR. Prior to March 2002, OPR also had a Deputy
Assistant Director. That position has been vacant since March 2002 when the
former Deputy Assistant Director, John O'Connor, retired.
       Before July 200 I, the FBI had sole jurisdiction to investigate allegations of
misconduct by FBI employees; the GIG could not investigate misconduct in the
FBI without the express pennission of the Attorney General or the Deputy
Attorney General. In July 200 I, the Attorney General expanded the jurisdiction of
the GIG to allow it to investigate misconduct throughout the Department of Justice
(Department), including in the FBI.1 As a result, the GIG now reviews all
allegations of misconduct in the FBI and detennines which ones it will investigate
and which ones FBI GPR should investigate. Normally, the GIG investigates


    1~ Attorney General Order 2492-2001 and 28 C.F.R. § 0.29. In November 2002, this
expansion of the OIG's jurisdiction was codified in statute by the 21 stCentury Department of
Justice Appropriation Authorization Act (Pub. L. 107-273).




                                                4
allegations of misconduct against high-level FBI officials, allegations that would
 likely result in criminal prosecution if proved, and allegations that presentthe FBI
with a conflict of interest or that the OIG believes should be investigated by an
entity outside the FBI. Currently, the OIG is conducting approximately 40
investigations of misconduct against FBI employees. The majority of
investigations of misconduct against FBI employees,however, are still investigated
by FBI OPR. Each year, OPR receives approximately 3000 allegations of
misconduct against FBI employeesand opens approximately 700 cases.
      Although the FBI organization chart indicates that OPR reports to the EAD
for Administration, Jordan told the OIG that he reports to FBI Deputy Director
Gebhardt on substantivematters and to EAD Lowery on administrative matters.2

     B. Roberts' FBI Career
       Roberts has worked for the FBI since 1984. He initially served as a special
agent in the FBI's Paducah, Kentucky, Resident Office and then in the FBI's
Miami Division. In 1990, he was assigned to FBI OPR as a supervisory special
agent to investigate misconduct cases. In 1993, he was assigned to the FBI's
Inspection Division as an Assistant Inspector. In 1994, he transferred to the
Boston Division of the FBI. In 1995, he was assigned to work on the internal
investigation of the FBI's actions in the Ruby Ridge case. Roberts was one of two
FBI Inspectors in Charge of that investigation, working with the Department Task
Force and then with the Acting United States Attorney for the District of
Columbia, who led the Department's investigation of the handling of the Ruby
Ridge matter. 3 In 1997, Roberts was transferred to FBI OPR and made the Unit
Chief of Internal Investigative Unit II, his current position.
        During his time in CPR, and during his work on the Ruby Ridge matter,
Roberts investigated various allegations of misconduct against high-level FBI
officials. As a result of his work, Roberts has raised allegations to the FBI, the
Department, and Congressthat a double standard of discipline exists in the FBI.
For example, on July 18,2001, he testified before the SenateJudiciary Committee

    2 In late January 2003, Director Mueller decided to change the reporting structure to make
OPR report directly to the FBI Director and Deputy Director.
   3 For a detailed description of the investigation of the FBI's actions in the Ruby Ridge
matter, seethe OIG's report entitled "A Review of Allegations of a Double Standard of
Discipline at the FBI," November 15,2002.




                                                5
     about investigations of misconduct within the FBI, including the Ruby Ridge case,
     and the perception of a double standardof discipline in the FBI.
          Roberts is married to Brenda Roberts, who has served as the secretary to the
     FBI OPR Assistant Director since January 2001. She is currently Jordan's
     secretary.

                Jordan's FBI Career
            Jordan has been employed by the FBI since 1980. Prior to joining the FBI,
     he was an Assistant District Attorney in Philadelphia. During his career at the FBI,
     he was assignedto the FBI's Boston Field Division to work on public corruption
     cases;the Public Corruption Unit at FBI Headquarters;the FBI's SanDiego Field
     Division, where he worked on a large-scalejudicial corruption case; and the
     Newark Field Division, where he servedas an Assistant Special Agent in Charge
     (ASAC) of that office. In 2000, he was transferred to FBI Headquartersto become
     the chief of the FBI's Integrity in Government/Civil Rights Unit, where he had
     oversight of public corruption, governmentfraud, and civil rights investigations.
           On August 19,2002, Jordan was appointed to be the Assistant Director in
     charge of FBI OPR. Jordanassumedthat office on September2,2002.4

          D. Roberts' and Jordan's Relationship
           According to many accounts,prior to the 60 Minutes broadcast on
     October 27, Jordan and Roberts had a positive and professional relationship. For
     example, Roberts told others in OPR after Jordan arrived that Jordan was an asset
     to OPR and credited him with good work. Roberts also told the OIG that he made
     many complimentary statementsabout Jordan during his 60 Minutes interview,
     none of which was broadcast. Several OPR employeesalso informed the OIG that
     Roberts had commented to them that Jordan seemedto representa positive change
     for OPR. For example, one OPR employee said that after meeting Jordan, Roberts




         4Michael DeFeo, the former Assistant Director, served as the head of FBI OPR from
     June 1996 until he retired in September2002.




                                                    6



c.
     had said that Jordanwas a nice change of pace, open to opinions, and willing to
     listen.s
           When Jordan was away from the office on two occasionsbefore the
     60 Minutes broadcast,he appointed Roberts, who was the most senior Unit Chief
     in OPR, as the Acting Assistant Director in his place. Thesetwo times occurred
     when Jordan attendeda conference for two days in early October and when he
     went on annual leave from October 14 to October 23. During his absences,Jordan
     authorized Roberts to attend all meetings and exercise all authority on Jordan's
     behalf.

     III.    THE 60 MINUTES BROADCAST

                  The 60 Minutes Interview
             According to Roberts, in late September2002, 60 Minutes contactedhis
     attorney and requestedan interview of Roberts by correspondentEd Bradley.
     Roberts' attorney sought permission from the FBI for Roberts to be interviewed.
     In a letter dated October 8, 2002, Michael Kortan, the Chief of the Public Affairs
     Section in the FBI's Office of Public and CongressionalAffairs, gave Roberts
     permission to be interviewed. Kortan' s letter stated that he understood Roberts
     would be askedto addressgeneralissuesregarding the FBI's culture but would not
     be asked to comment on confidential FBI matters or open investigations. The
     letter reminded Roberts that he was restricted from discussing any official FBI
     information in 12 broad categories. (A copy of Kortan's letter is Attachment 2.)
     Jordan also was given a copy of the letter.
             Roberts said that he believed that 60 Minutes would interview him about the
     subject of his testimony to Congressin July 2001, which concernedinvestigations
     of misconduct in the FBI and the alleged double standard of discipline. Roberts
     told us that he did not receive any instructions from the FBI, other than Kortan' s
     letter, about the 60 Minutes interview. Neither Jordan nor Lowery talked to
     Roberts about the interview in advance. Roberts said that one official from the
     FBI's Office of Public and CongressionalAffairs spoke to him before the
     interview and was critical of 60 Minutes, and how it had portrayed the FBI in the


            5 Several employees also said that Brenda Roberts expresseda positive reaction to Jordan
     when he took office, and that she said she thought Jordan was going to be a breath of fresh air for
     aPR.



                                                      7




A.
past, but the official did not instruct Roberts not to do the interview or tell him
what to say during the interview.
      On October 8, Roberts was interviewed for about 50 minutes by 60 Minutes
correspondentEd Bradley. Roberts' attorneywas present during the interview to
ensure that Roberts followed the restrictions in the FBI letter. Roberts told the
OIG that during the interview he made numerous complimentary statementsabout
Jordan. He also said that although he knew that Sibel Edmonds, a former FBI
contract employee who had made various allegations about misconduct in the
FBI's translation program, was going to be interviewed by 60 Minutes, Roberts
thought that 60 Minutes was going to broadcastseparatesegmentsabout Edmonds
and him.

     B. The Broadcast
      The 60 Minutes broadcastcontaining excerpts of Roberts' interview aired on
Sunday, October 27. The program mainly concernedallegations by Edmonds that
the FBI had not translated thousandsof foreign languagedocuments and that the
FBI's foreign language program was riddled with incompetenceand corruption.6
(A transcript of the 60 Minutes broadcastis Attachment 3.)
       The 60 Minutes segmentalso included an interview of SenatorGrassley,
who stated that he believed Edmonds was credible becausepeople within the FBI
had corroborated much of her story. Ed Bradley stated on the program that critical
shortagesof Middle Easterntranslatorshad plagued the FBI for years and that the
FBI had hired more foreign languagetranslators after the terrorist attacks on
September11, 2001, but the FBI admitted that it had difficulty perfom1ing
background checks on the translators. Edmonds said that an FBI contract
translator had tried to recruit her into an organization that was the subject of an FBI
investigation. Edmonds said she complained repeatedlyabout this other translator,
but no one in the FBI wanted to hear it. Senator Grassleystated that the Edmonds
case fell into a pattern of behavior by the FBI to sweepembarrassinginformation
under the rug, then "eventually they shoot the messenger."
      The 60 Minutes segmentthen aired the following excerpts from its interview
of Roberts:



    6The OIG is currently investigating Edmonds' claims.




                                             8
BRADLEY:      SpecialAgent JohnRoberts,a chief of the FBI's InternalAffairs
              Department,agrees.And while he is not permittedto discussthe Sibel
              Edmondscase,for the last 10years,he hasbeeninvestigatingmisconduct
              by FBI employeesandsayshe is outragedby how little is everdoneabout
              it.
ROBERTS:      I don't know of another person in the FBI who has done the internal
              investigations that I have and has seenwhat I have and that knows what
              has occurred and what has been glossed over and what has, frankly, just
              disappeared,just vaporized and no one disciplined for it.
BRADLEY:      Despite a pledge from FBI Director Robert Mueller to overhaul the culture
              of the FBI in light of9/11, and encourageBureau employees to come
              forward to report wrongdoing, Roberts says that in the rare instances when
              employees are disciplined, it's usually low-level employees like Sibel
              Edmonds who get punished and not their bosses. (Clip of FBI Director
              Robert Mueller)
ROBERTS:      I think the double standard of discipline will continue no matter who
              comes in, no matter who tries to change. You --you have a certain --
              certain group that --that will continue to protect itself. That's just how it
              IS.

BRADLEY:      No matter what happens?
ROBERTS: I would say no matter what happens.
BRADLEY:      Have you found casessince 9/11 where people were involved in
              misconduct and were not, let alone reprimanded, but were even promoted?
ROBERTS: Oh, yes,absolutely.
BRADLEY:      That's astonishing.
ROBERTS: Why?
BRADLEY: Because you --would think that after 9/11, that's a big slap on the face.
              'Hello! This is a wake up call here.'
ROBERTS: Dependson who you are. If you're in the SeniorExecutivelevel, it may
         not hurt you. You will be promoted.
BRADLEY:       In fact, the supervisor who Sibel Edmonds says told her to slow down her
              translations was recently promoted. Edmonds has filed a whistle-blower
              suit to get her job back, but last week, US Attorney General Ashcroft
              asked the court to dismiss it on grounds it would compromise national
              security. And also on the grounds of national security, the FBI declined to
              discuss the specifics of her charges,but it says it takes all such charges
              seriously and investigates them.




                                        9
           REACTION TO THE 60 MINUTES BROADCAST

                 Monday, October 28
             On the morning of October 28, several FBI OPR employees watched a tape
      of the program in the office. A few told us that they thought Roberts' statements
      were factual or that they were not surprised by what he had said. Several,
      however, told us that they were troubled that Roberts' statements appeared to give
      credibility to Edmonds's claims, and some said they wondered why Roberts was
      raising old cases related to the alleged double standard. Others said they did not
      understand what Roberts was referring to when he claimed that cases disappeared
      or that nothing would change in the FBI, no matter who "comes in."
             Throughout the FBI, many employees and managers expressed their
      opinions about the 60 Minutes broadcast and Roberts' statements. For example, in
      an e-mail to Jordan, FBI Deputy Director Gebhardt stated, "If we have internal
      problems then I would rather find solutions and fix them, rather than tell the world
      on 60 Minutes. In my opinion, Roberts brought discredit to the FBI Badge, and the
      27,000 employees of the FBI. I can't remember when I've been this
      disappointed."? Jordan's response to Gebhardt's e-mail started with "I could not
      agree with you more. There was the obvious direct shot at the Director (and
      myself) with the quote, 'I think the double standard of discipline will continue no
      matter who comes in, no matter who tries to change. ",

             Jordan was clearly upset by what Roberts said on the show. Jordan told the
      OIG that he first learned the show was going to be aired when Brenda Roberts told
      him the segmentwould be shown on Sunday, October 27. Jordan said he watched
      the show on Sundaynight, but that the portion with Roberts went by so quickly
      that he was not certain what Roberts had said until the next day, when Jordan
      obtained a transcript of the broadcast. According to Jordan, after reading the
      transcript, his initial reaction was that Roberts had either "lied or misstated

          7 In our interview with him, Gebhardt stated that when he saw the show he was extremely
      disappointed with Roberts' comments. Gebhardt said that the FBI has been working hard to fix
      internal problems and striving to make changes,and that Roberts' statementswere one person's
      opinion that cast a negative light on the FBI as a whole, not just one unit or Division. Gebhardt
      also said that to his knowledge Roberts had not brought any of his present concerns to FBI
      managementprior to airing them on 60 Minutes. Gebhardt said that when he wrote the e-mail he
      thought that Roberts had brought discredit to the FBI and its 27,000 employees, and he believes
      that today.




                                                     10



A.
IV.
material fact" when he claimed that cases "disappeared" or "just vaporized."
Jordan also said that he thought that Roberts was either not telling the truth or was
commenting on his own behavior, because as the Unit Chief of an Internal
Investigations Unit, Roberts was responsible for reporting all allegations of
misconduct to the OIG. As a result, Jordan questioned how cases could have
disappeared or vaporized. Jordan said it seemed incredible that Roberts would
claim that cases were not being reported or pursued when it was his responsibility
to do just that. Jordan also said that he did not know which cases Roberts was
referring to and Roberts had never reported such misconduct to him.
        Jordan said he also was startled by Roberts' comment that things would
remain the sameno matter who was in charge at the FBI. Jordan took that as a
criticism of him despite the fact that he had beenthe Assistant Director ofOPR for
less than two months. Jordan said that when he was appointed to be the Assistant
Director, Director Mueller had instructed him to make changes,which Jordan was
in the process of doing, and that he had discussedwith Roberts many of the
changesplanned or under way.

     B.    Meeting with Director Mueller on October 28
      According to Jordan, on Monday morning, October 28, he was asked to
come to the Director's office, where he met briefly with Director Mueller about the
60 Minutes program.s Jordan said Director Mueller asked if Jordanhad seenthe
program and if Jordan knew to what Roberts was referring, and Jordan said he had
seenthe program but did not know what Roberts was referring to. Director
Mueller then asked if it was true that casesvanished or disappeared. Jordanreplied
he had no information or facts to back up Roberts' statementsthat caseswere
vaporizing or disappearing,and that Roberts either misspoke or was misquoted.
Jordan also mentioned that Roberts himself was responsible for reporting casesto
the OIG. He said the Director then askedJordan to discussthe matter with EAD
Lowery and get back to him on what to do.




    8 In our interviews with FBI managers,we found some confusion as to the exact dates,
times, and persons who attended the meetings from October 28-30. We believe, based on the
evidence and the recollections of the participants, that the following description reflects the dates
of the meetings and the persons who attended.
                Meetings on October 29

                1.   Jordan and Lowery Meeting
         .Lowery was out of town on October 28 and returned to the office on
     October 29. He met with Jordan on the morning of October 29 to discussthe
     60 Minutes broadcastand Roberts' allegations. Lowery said that he and Jordan
     reviewed the transcript of the show and were troubled by Roberts' implication that
     things were not done correctly at OPR, no matter who was in charge. Lowery said
     he asked Jordan if he knew of any basis for Roberts' allegations, and Jordan
     responded that he did not. Lowery said that Jordantold him they should refer the
     allegations raised by Roberts to the OIG. Lowery further stated that Jordan
     suggestedthey meet with Roberts and advise him of their intention to refer his
     allegations to the OIG.
             Jordan also said that he and Lowery discussedRoberts' responsibility, and
     the responsibility of any FBI employee, to report any allegations of misconduct to
     OPR or the OIG, and that if Roberts was aware of misconduct, as he proclaimed on
     60 Minutes, he should report it to the OIG. Jordan said they decided to draft a
     letter to the OIG describing the 60 Minutes interview and referring Roberts'
     allegations of misconduct to the OIG. In addition, Jordan said he wanted to write a
     letter of rebuttal to 60 Minutes to correct the statementsmade by Roberts.

               2. Meeting with Director Mueller
            Lowery and Deputy Director Gebhardt met with Director Mueller later that
     sameday. Lowery said the meeting was brief, and that they advised the Director
     that they intended to send Roberts' allegations to the OIG and that Lowery and
     Jordan would meet with Roberts to advise him of this action. Lowery said the
     Director agreed with the proposed referral to the OIG.9
            Gebhardt also confirmed that he and Lowery went into the Director's office
     to inform him of their intention to refer Roberts' allegations to the OIG. Gebhardt
     said that at no time did they ever discuss referring Roberts' actions to the OIG,
     only his allegations.



         9 Gebhardt, Lowery, and Director Mueller all thought that Jordan also attended this meeting,
     but Jordan said he remembered clearly that he was not present.




                                                    2



c.
        Director Mueller told us he strongly believed that two allegations raised by
Roberts in the 60 Minutes broadcast -that a double standard continued to exist and
that cases were "disappearing" or "vaporizing" -needed to be investigated by an
independent party. Director Mueller said that after he had read the 60 Minutes
transcript, it appeared that the allegations raised by Roberts were current, ongoing
allegations and not historical, and that these allegations should be referred to the
OIG for investigation. He said he understood that Jordan and Lowery were going
to meet with Roberts to inform him of this course of action and that a formal
referral letter was going to be sent to the OIG requesting an investigation. Director
Mueller said that he never was involved in any discussion about referring Roberts
to the OIG for investigation. Director Mueller said that it was his belief that
referring the matter to the OIG would resolve the issues raised by Roberts. He said
that sometime after Lowery and Jordan had spoken with Roberts, Lowery informed
the Director, in a very brief meeting, that everything was fine.1o

           3.    Meeting among Jordan, Lowery, and Roberts

       At 5:00 p.m. on October 29, Jordan, Lowery, and Roberts met in Lowery's
office.11 Their versions of what was said during this meeting, and the tone of the
meeting, differed markedly.
      According to Roberts, he was contacted at about 4:00 that afternoon and told
to meet with Jordan at 5:00. Roberts said his initial thought was that they would
discuss how to make improvements in OPR. Roberts said that when he went to
Jordan's office at 5:00, Jordan appearedvery cold and stoic, and they walked
acrossthe hallway to Lowery's office.
       According to Roberts, in Lowery's office Jordanread the portion of the



    10Director Mueller said he did not instruct Jordan to have a meeting with OPR staff to
discuss Roberts or the 60 Minutes program, and that he was unaware that such a meeting was
planned. Director Mueller said he was next informed that he had received a letter from Senators
Grassleyand Leahy (dated November 8) asking why the FBI was referring Roberts to the OIG.
Director Mueller said the FBI forwarded a copy of the FBI's referral letter to the Senators' staff,
which showed that the FBI was referring Roberts' allegations to the OIG, not Roberts himself.
     11Lowery and Jordan both stated that prior to this meeting they did not seekguidance from
anyone else on the matter, including the FBI Office of General Counsel, as to how to proceed or
what to say when meeting with Roberts.




                                                  3
60 Minutes transcript with Roberts' statements and asked what he had meant by the
comments. Roberts said it was clear that Jordan was very angry and was taking the
comments personally. Roberts said Jordan specifically asked about Roberts'
comments that the double standard problem continued to exist after September 11.
Roberts said he had been restricted from talking about specific cases on
60 Minutes. He said he mentioned the Ruby Ridge and the Potts retirement party
cases. He said he did not go into detail about those cases during his interview, but
raised them to illustrate the double standard. He said Jordan responded that
Roberts had not been clear on 60 Minutes and asked about the comments referring
to current double standard problems. Roberts said he told Jordan about a case
involving an FBI agent who was being disciplined more harshly for making
improper comments than an FBI Special Agent in Charge (SAC) who had made
comparable offensive comments in a public forum. Roberts believed the harsher
discipline for the agent reflected a double standard. Jordan responded that this
case was not on his watch, and Roberts replied that the agent had just received the
letter of censure at the end of September, after Jordan started as the Assistant
Director of aPR. Roberts said that Lowery asked him to repeat what had occurred
in the SAC case, and Roberts did. 12

       According to Roberts, Jordan then stated that he was "referring this to the
OIG." Roberts said that when Jordan made this statement he was holding the
60 Minutes transcript in his hand. Roberts interpreted Jordan's statement to mean
that Jordan was referring Roberts to the GIG and that Jordan was accusing him of
misconduct. Roberts said he replied that he had done nothing wrong, that he had
approval to appear on 60 Minutes, and that he had been instructed not to mention
specific cases on the program, which he had not done. According to Roberts,
Jordan again said that he was referring "this" to the GIG, and Roberts replied,
"You have to do what you have to do. I have done nothing wrong." At that point,
according to Roberts, Lowery said "we have work to do," which indicated that the
meeting was over.


    12Roberts had infonned Jordan of his concerns about this casepreviously. On October 17,
2002, Roberts had sent a routing slip to Jordan, which attacheda copy of the letter of censure for
the agentwho was being disciplined for the improper remarks. The routing slip stated "Bob, I
think we are causing OPR unnecessaryproblems. If you check the [SAC] case you will find his
actions more egregious than the [agent's] actions. [The SAC] gets counseling and [the agent]
gets a letter [of censure]. It just does not make senseand we are leaving OPR open to criticism.
We have to fix this. Your thoughts?" Roberts said Jordan never responded to the note.




                                                 4
       Roberts said no pleasantries were exchanged at the meeting, and that he
believed Jordan and Lowery were angry. He said he left the meeting with a clear
message that he had done something wrong, and that Jordan and Lowery were
going to refer him to the OIG. Roberts told a colleague in CPR that he had been
"read the riot act" in the meeting. Roberts also told the colleague that Jordan had a
copy of the 60 Minutes transcript and was angry about the statements Roberts had
made.
      Jordan's and Lowery's accounts of the meeting differed significantly from
Roberts' version. Jordan said that at the meeting he reviewed with Roberts the
60 Minutes transcript and Roberts' statementsthat caseswere disappearing from
OPR and that senior employeeshave gone unpunished. He said he asked Roberts
what he was talking about and that Roberts respondedthat he was talking about
Ruby Ridge and Waco.i3 Jordan said he replied that this was not part of the
transcript. Jordan told us he did not recall Roberts mentioning the SAC case in this
meeting, although Jordan acknowledged that he was familiar with the issue.i4
       Jordan said he told Roberts that his allegations would be referred to the OIG
and a letter was being written to that effect. Jordan said that he recalled Roberts
saying near the end of the meeting that he had done nothing wrong and that they
must do what they had to do.
      Jordan described the meeting as "very businesslike." Jordan stated that
Roberts "seemed fine with the GIG referral," although Jordan said that Roberts
"seemed puzzled as to what this was all about."



    13Jordan acknowledged to us that Roberts may have also mentioned the Potts retirement
party case.
     14Jordan said he recalled the routing slip from Roberts that discussedthe SAC matter and
the difference in discipline between the SAC and the special agent. Jordan stated to us that by
the time he received the routing slip, the matter was "a done deal." He said that the issue raised
by Roberts about the difference in penalties was not that clear-cut, and that the agent's comments
were more egregious than the SAC's comments. Jordan added that OPR adjudicates 700 casesin
one form or another annually, and someonecould pick out one caseand find fine points of law or
fact to contest. Jordan also added that the SAC casehad been completed and was not pending.
Finally, he stated that the routing slip was sent by Roberts on October 17, when Jordan was on
leave and Roberts was the Acting AD for OPR, and that Roberts had full authority during that
time to take stepsto correct what he saw as anything wrong with the discipline imposed in the
agent's case.




                                                15
        Lowery told the OIG that the purpose of the meeting was to communicate
with Roberts, not to criticize or discipline him. Lowery said the meeting was short,
lasting approximately six to seven minutes. Lowery said that Jordan read Roberts'
portion of the 60 Minutes transcript and that Lowery and Jordan "asserted [their]
concerns about his allegations and statements." Lowery said that they explained
their intention to send a letter requesting that the OIG investigate the allegations
made by Roberts during the program, and they asked Roberts to give the OIG his
full cooperation. Lowery said that Roberts stated to them that he had positive
things to say about Jordan during the 60 Minutes interview, but those statements
were not aired on the broadcast. According to Lowery, Jordan thanked Roberts for
those statements, but stressed that they must go by what aired on the program.
Lowery said that they advised Roberts that they would provide him a copy of the
letter to the OIG, and Roberts responded that we should get on with what we need
to do. Lowery said that "not a cross word was spoken, no criticism was issued, and
no one raised his voice."15

     D.    October 30 Referral Letter to the Inspector General
      Jordan drafted a referral letter to the Inspector General on October 29. He
gave a copy of the draft to Lowery, who forwarded it to Kenneth Wain stein, the
FBI General Counsel. Wainstein suggested specifying in the letter the actual
statements Roberts made in the 60 Minutes broadcast, and those quotations were
added. 16

       The letter, signed by Jordan and addressedto the Inspector General, referred
to Roberts' appearanceon 60 Minutes and his statementsregarding disparate
treatment for different levels of FBI employees. It quoted Roberts' comments
about casesdisappearingand that the double standard of discipline would continue.
The letter stated that Roberts' commentsindicated a lack of confidence in the
ability of FBI OPR to addressthese issuesand concluded:
       These remarks raise serious issues of concernto us. Given the gravity
       of [Roberts'] remarks, and his lack of confidence in this office to
       addressthese issues, we have directed Unit Chief Roberts to contact


    15Lowery said he did not recall any discussion of the SAC case.
    16The letter that was sentto the Inspector General, dated October 30, 2002, and signed by
Jordan, added additional quotes from the transcript. (A copy of the letter is Attachment 4.)




                                                16
      your office to provide additional details. Please contact me if I can be
      of further assistancein this matter.
        Jordan said that on October 30, following an OPR Unit Chiefs meeting, he
gave Roberts a copy of the letter. According to Jordan, when Roberts looked at the
letter he asked, "What's this?" Jordan said Roberts appeared surprised by the
content of the letter and must have misunderstood what was said at the meeting the
 day before. Roberts told Jordan he thought Jordan was going to report his conduct
to the OIG. Roberts also stated that during his interview with 60 Minutes he had
said some wonderful things about the Director, Lowery, and Jordan. Jordan said
Roberts stated that in his 60 Minutes remarks he had been referring to old cases
that he was prohibited from discussing on the program.
       Jordan said he told Roberts that even though a handful of people at CBS
heard him say that he was referring to old cases, millions of people who watched
the broadcast were given a different message. Jordan said he told Roberts that "he
who creates ambiguity shall have that ambiguity resolved against him," and that
Roberts had created the ambiguity, not Jordan. Jordan said he also mentioned that
his 82-year-old mother, who was in a nursing home, had contacted him after the
program and told Jordan that she had thought the FBI was "on the level," and
asked if Jordan would ever be able to change the FBI.
      According to Roberts, he received the letter on the morning of October 30,
when he went into Jordan's office to discuss with Jordan the assignment ofOPR
cases. Roberts said he told Jordan that his unit had twice as many investigations
pending (with three fewer supervisors) than the other Internal Investigative Unit,
and that he intended to assign his cases to supervisors in the other OPR
Investigative Unit. Roberts said he had discussed this with the other Unit Chief,
who had concurred, and Jordan agreed with this proposal.
      Roberts said that Jordan then raised the 60 Minutes broadcast. According to
Roberts, Jordan stated that he had received calls about the program from FBI
SACs, and they had informed Jordan "I had better check my shorts, because I may
be bleeding from my own guy." Roberts said he clearly remembered this comment
and found it very disturbing. He said that Jordan then commented about his
mother seeing the 60 Minutes show from a hospital bed, and that Roberts
responded that, as he had told Jordan before, "[I] had sung your praises and I
couldn't be more specific. I had permission to be on that show." Roberts said he




                                         17
also raised the SAC case again and the fact that he had previously informed Jordan
about the matter. Roberts said he told Jordan he had put a routing slip in Jordan's
box that discussed the case and "how bad that makes us look."!7
       According to Roberts, Jordan then said that Roberts had "dissed" Jordan and
the FBI Director on 60 Minutes, and that Roberts "must have been naive to go
before 60 Minutes and expect them to put everything on. You are my senior guy
and millions of people heard what you said." Roberts said he asked Jordan ifhe
was "thinking about getting rid of me," and Jordan responded "no." Roberts said
that Jordan then provided him with a copy of his referral letter to the OIG. Roberts
said he was surprised by the contents of the letter, because he had understood from
the meeting the afternoon before that he was going to be referred to the OIG.
       Jordan told the OIG that he did not recall ever using the term "dis" in any
conversation with Roberts, and that he doubted he did becauseit is not a term he
typically uses. However, he said that he could not saywith certainty that he did
not use this phrase in a conversation that had occurred weeks earlier. Jordan added
that he has used the phrase about "bleeding internally" in other conversationsas a
reference to someonewho is unaware that somethingis wrong, but he did not
recall using the specific phrase "bleeding from my shorts" in this meeting with
Roberts. Jordan said he questionedRoberts about why he had made the comments
about the Director and Jordan on 60 Minutes. Jordansaid he definitely told
Roberts that he thought Roberts' comments createda reasonableinference that the
Director and Jordan were not honest in their handling ofOPR cases. Jordan said
he believed he told Roberts that his inference that the OPR processwas corrupt or
that neither the Director nor Jordan would ever changethe processwas a "slap in
the face."

     E. FBI's Response to 60 Minutes
        The FBI drafted a responseto the 60 Minutes broadcast, which it sent to
60 Minutes on November 1, 2002, and also posted on its Intranet website.18This
letter, signed by Michael Kortan, Chief of the FBI's Public Affairs Section, first



    17Jordan said he did not recall Roberts mentioning the SAC caseagain, but he could not
recall for certain.
     18The letter is Attachment 5 to this report.




                                                    18
discussedthe FBI's foreign languageprogram and the FBI's security program. It
then stated:
        Finally, contrary to allegations in your story, reports of employee
        misconduct are given high priority and exhaustively investigated, ,and
        punishment is imposed in an equal manner. While allegations of
        disparate treatment were raised in the early and mid 1990' s, the FBI
        has implemented policies to protect against actual or perceived
        unfairness in the disciplinary process. Importantly, under Director
        Robert S. Mueller, any serious allegation of wrongdoing made against
        an FBI employee is reviewed by the Department of Justice, Office of
        the Inspector General -making      it impossible for misconduct to be
        ignored, much less rewarded, as alleged in Sunday's report.

v.    NOVEMBER 6 MEETINGS
       Jordan said that in the next severaldays, the 60 Minutes broadcastcontinued
to be discussedin OPR and throughout the FBI. For example, on November 4,
Jordan received an e-mail from an OPR employee complaining about Roberts'
statementson 60 Minutes and questioning whether Roberts had received approval
to be on the show.19In addition, Jordan said that during a meeting of FBI Assistant
Directors, Lowery discussedthe 60 Minutes broadcastand stated that Roberts had
been askedto report his knowledge of misconduct to the OIG.
      Jordan said that after thesetwo events,he realized he neededto addressOPR
employees about the 60 Minutes broadcast. He said he believed he neededto
reassurethem about their work and mission. He said that OPR employeeswere
questioning if Roberts' statementswere true or false, and Jordanbelieved that this
uncertainty warranted a managementresponse. He added that from his legal
educationhe recalled case law suggestingthat failure to reply to a direct accusation
of misconduct can be perceived as evidence of an admission.



     19The e-mail also stated, "I'm surprised that someonewith so little faith in the OPR process
can be allowed to continue to have such an instrumental role. Testifying before Congresswas
one thing, but airing our dirty laundry on national TV is wrong. Years ago, the Bureau either
promoted an employee and got them out of a particular area, or gave them a loss of effectiveness
transfer. Don't we do either anymore?" Jordan's responseto the e-mail stated, "Your
observations are accurate and probably reflect the opinions of others.. ."




                                               19
            He said he therefore decided to discuss the 60 Minutes interview at OPR's
     monthly all-employees meeting. He e-mailed Lowery on November 4, stating "I
     will probably have to address this matter with OPR as a whole."2O
            OPR's regular monthly all-employees meeting was scheduled for Thursday,
     November 7. Jordan said that because he was going to be on annual leave on
     November 7 and 8, he asked his secretary, Brenda Roberts, to change the meeting
     to the afternoon of Wednesday, November 6.21

                Unit Chiefs' Meeting
           On the morning of Wednesday,November 6, Jordanheld the weekly
     meeting of OPR Unit Chiefs, which is regularly scheduledon Wednesday
     mornings. Attending this meeting were Thomas Monroe (the Unit Chief of
     Internal Investigative Unit I); Brian Fortin (the Unit Chief of Adjudication Unit I);
     Daniel Dubree (the Unit Chief of Adjudication Unit II); Dennis Franko (the Unit
     Chief of the Administrative Unit); and Patrick Kiernan from the LEEU (attending
     on behalfofLEEU Unit Chief Belinda Johns).
            Roberts was on sick leave on November 6 and had a doctor's appointment
     that afternoon. Attending the meeting in his place was Supervisory Special Agent
     Judith Chilen, who worked under Roberts in Internal Investigative Unit II, and was
     the Acting Unit Chief in Roberts' absence.
            According to our interviews of the participants in the meeting and our
     review of their notes, Jordan began the meeting with routine business. One of the
     topics he mentioned was the fact that a vacancy announcement for the OPR Deputy
     Assistant Director position would be posted that afternoon.                   .

            Also on the meeting agendawas an item described as the "Monthly OPR
     Meeting Agenda." Toward the end of the Unit Chiefs' meeting, Jordan addressed
     this issue, discussinghis intent to raise Roberts' 60 Minutes interview at the all-
     employeesmeeting. Jordan stated that he had received many inquiries about the
     Roberts interview and was concerned about how the show affected OPR. Jordan
     reported that Roberts had pennission to appearon 60 Minutes. Jordan then said he

         20Lowery did not respond to the e-mail.
         21Brenda Roberts said that on November 5 Jordan changedthe date of the meeting. Jordan
     said he could not remember exactly when he decided to changethe date of the meeting, but he
     would not dispute Brenda Roberts' recollection that it was changed on November 5.




                                                   20



A.
intended to read quotes from the transcript at the meeting, and Jordan then read
Roberts' statementsfrom the transcript of the 60 Minutes program to the group.
Jordan discussedtwo quotes from the transcript: the "vaporization" quote and the
statementabout things not changingno matter who comes in to the FBI. Jordan
stated that he had directed Roberts to report the disappearingcasesto the Inspector
General. Jordan also said that other positive commentsmade by Roberts about the
FBI did not make it on the show. Jordan said that the show left a negative
impression about the FBI, that "we're not on the level," and he said that he was not
going to let that happen on his watch. Jordan stated that he was being asked a lot
of questions about the interview, both inside and outside OPR, and that as a
managerhe could not ignore the issue, but neededto addressit with OPR.
       According to several participants at the meeting, someone mentioned that
Roberts was not going to be in the office that day. Jordan responded that he
wished Roberts could be at the all-employees meeting, but that Jordan was
scheduled to be out of the office for the rest of the week and that he did not want to
put off the discussion for another month until the next scheduled all-employees
meeting. According to several participants, Unit Chief Daniel Dubree suggested
that Roberts be allowed to participate by speakerphone. Jordan asked Judith
Chilen to contact Roberts and advise him about the availability of coming into the
office for the meeting or participating by speakerphone.
      Jordan told us that he asked Chilen and Dubree to take notes at the all-
employees meeting, because he believed that whatever he said would be
controversial or misquoted.
       According to Jordan, after the Unit Chiefs' meeting he privately told Brenda
Roberts, his secretary, that he was going to discuss the 60 Minutes interview at the
all-employees meeting and that she might be uncomfortable. Although normally
attendance at these all-employee meetings is mandatory, Jordan told Brenda her
presence at this meeting was optional. Jordan said that Brenda did not respond.
He said he asked her if she understood what he was saying, and she responded that
she could not talk to him.22




    22Brenda Roberts reported to us that when Jordan told her she might be uncomfortable at
the meeting, she replied that she would be okay, and that when he tried to engageher in
conversation, she said she would rather not comment.




                                              21
        Patrick Kiernan told us that when he returned to the LEEU at Quantico
 following the Unit Chiefs' meeting that morning, he wished that he had spoken up
 during the meeting about Jordan's intention to address OPR without Roberts being
present.23 Kiernan stated that he believed the issues from the 60 Minutes broadcast
needed to be addressed, but he believed there was a better way to do it than what
Jordan was intending. Kiernan therefore called Jordan and suggested that if he
intended to talk about Roberts and 60 Minutes at the all-employees meeting, Jordan
needed to choose his words very carefully. Kiernan told Jordan this was a
sensitive situation, and with one wrong word it could be perceived as retaliatory or
 derogatory against Roberts. Kiernan also suggested to Jordan that he should
 consider waiting to have the meeting until Roberts was back in the office, stating
that the issue had already gone on for a couple of weeks (from the October 27
broadcast to November 6), so why not wait for Roberts to be present. Kiernan said
that even having Roberts on the speakerphone was not the same as Roberts being
present at the meeting. Kiernan also said to Jordan he thought it would be a good
idea for Jordan to call Roberts and give him a choice of how to attend the meeting,
by speakerphone or in person, and give Roberts a heads-up as to Jordan's intended
remarks.
     Kiernan said that in responseto these suggestions,Jordan stated that he
understood what Kiernan was saying but felt he could not ignore the issues at hand
and would give Roberts an opportunity to addressthe group or respond to Jordan's
comments. Jordan also stated that he did not want to call a special meeting to
addressthis issue becausethen all the focus would be on Roberts.
       Jordan acknowledged to us that Kiernan called him after the Unit Chiefs'
meeting, stated that Roberts was a whistleblower, and expressed concerns about
Jordan's plan to address the 60 Minutes issue at the all-employees meeting. ~ordan
said he told Kiernan he was aware of what Kiernan was saying but that he saw no
reason not to discuss the issues with OPR personnel. Jordan said he therefore
decided to continue with the meeting as planned.
     Chilen called Roberts that morning, as Jordanasked,to discussthe all-
employeesmeeting. Chilen told us that when shebegan to tell Roberts about the

    23Kiernanhasworked in the LEEU since1998andwasthe primary authorof the LEEU's
reportexaminingwhethera doublestandardof disciplineexistedin the FBI. ~ the aIG Report
discussedin footnote3, entitled "A Reviewof Allegationsof a Double Standardof Discipline at
the FBI."



                                           22
Unit Chiefs' meeting and Jordan's planned discussion of the 60 Minutes broadcast
at the all-employees meeting that afternoon, Roberts seemedupset and wanted to
know why Jordanhad not called him about it. Roberts questioned Chilen why she
was put in the middle of the matter. Chilen asked Roberts whether he wanted to
attend the meeting via speakerphone,but Roberts declined, stating that he had a
doctor's appointment that precluded him from participating in the meeting.
       Roberts told us that he was on sick leave November 6, and that he had a pre-
arranged doctor's visit during the time Jordanhad scheduledthe all-employees
meeting. Roberts said he told Chilen that he would inform Jordan there was no
need to have him on a conference call during the meeting. Roberts told us that he
had never heard of someoneparticipating in an all-employees meeting via
speakerphoneand sawno need to participate. Roberts said he spoke with his wife,
Brenda, and told her to leave Jordan a messagethat it was not necessaryfor him to
participate by telephone.

     B. All-Employees Meeting
       We interviewed approximately 20 people who attendedthe all-employees
meeting on November 6, and also reviewed notes from the meeting taken by
severalparticipants. While the attendeesdid not remember in identical detail what
was said, there was little substantivedifference on many details among most
people we interviewed, and the notes from the meeting were generally similar.
However, severalpeople differed in their recollection about the tone of the meeting
and their interpretation of what was said. The following is our best reconstruction
of what was said at the meeting, basedupon notes taken during the meeting and the
recollections of participants.
       The meeting began with Jordan making standardannouncements,including
birthdays, anniversaries,and awards. Among the substantivetopics he then
discussed,Jordan announcedthat the FBI Director had given him permission to fill
the OPR Deputy Assistant Director slot.
       Jordan next discussed the 60 Minutes broadcast. Jordan began by stating
that he had heard from FBI employees who asked him about the 60 Minutes show.
Jordan said that a lot of people say the FBI is a family, and he believed that to be
true. He added, "We bond together because our work doesn't make any friends."
Jordan said that there are disagreements in any family. He said that it was difficult
for him to talk about those disagreements. He said that it would be easier to do and
 say nothing about the disagreements, but he was not that kind of manager.



                                         23
      Jordan said that Roberts had been offered the chance to participate in the
meeting by speakerphone but that he had declined. Jordan reported that he
(Jordan) was going to be on leave for the rest of the week, and he did not want to
wait another month to addressthe issue. Jordan said he would have preferred to
keep the matter private, but 80 million people had seenthe 60 Minutes broadcast.
       Jordan said that there might be some misperceptions about what had
happenedand what was said, so he wanted to put some facts on the table. He said
that through an attorneyRoberts had asked pennission to be interviewed by
60 Minutes, and that the FBI's Office of Public and CongressionalAffairs had
given Roberts pennission in writing, as long as he did not discuss specific cases.
       Jordan explained that the 60 Minutes segmentfocused on a contract linguist
at the FBI. Jordan read portions of the transcript, including Roberts' statements.
Severalparticipants at the meeting provided us varying perceptions about how he
read the transcript. Brenda Roberts statedto us that when Jordan read the
transcript, his voice and expressionshowed his distaste for what Roberts had said.
Brenda Roberts also said that when Jordanread SenatorGrassley's statements,his
voice changed,and he read SenatorGrassley's remarks in disgust.
     Most others we interviewed stated that Jordanread the transcript in a
conversationaltone, without inflection, in a strong tone, confident, or emphatic.
No one other than Brenda Roberts indicated that Jordan read SenatorGrassley's
comments in disgust.24
        However, severalattendeessaid it was clear that Jordan was upset by the
broadcast. For example, one employee statedto us it seemedthat Jordan had taken
personally Roberts' comments that nothing would changeno matter who was in
charge; another said it was her belief that Jordan took Roberts' comments as a slap
to his leadership.
       After reading from the transcript, Jordan said that he believed that what was
aired on the broadcastwas not the totality of what Roberts had told 60 Minutes.


    24The notes of the meeting and the participants' recollections are unclear as to exactly
which portions of the transcript Jordan read. It is undisputed that he read Roberts' statements.
Jordan stated that he did not recall mentioning SenatorGrassley's name at all, and most other
attendeesdid not remember Jordan discussing SenatorGrassley. However, two sets of notes
indicate that Jordan either read SenatorGrassley's statementsfrom the broadcast or mentioned
his name.




                                                24
He said the portion of Roberts' remarks that 60 Minutes decided to use would lead
a reasonableperson to believe that there are "ongoing cover-ups of misconduct in
the FBI." Jordan said that this was not true, and that every FBI employee has an
obligation to report misconduct in the FBI. Jordan said he was uncertain what
Roberts was referring to when he stated that caseswere disappearingor vaporizing,
and that he had directed Roberts to contact the Inspector Generaland provide the
specific allegations to him. Jordan said that he had written a letter to the Inspector
General, quoting the transcript, and that he had askedRoberts to provide to the
Inspector General whatever information he was referring to.
       Jordan repeatedthat Roberts told him that he had said a lot of favorable
things about OPR that were not broadcast,but that in reality CBS airs what it
wants. Jordan said that in Roberts' defense,what was aired was probably quoted
in the most unfavorable light. He said 5 CBS executives probably heard the entire
interview, but 80 million viewers heard only what was broadcast.
       Jordan then stated "he who creates ambiguity will have that ambiguity
resolved against him." He did not explain what he meant by that statement.
        Regarding Roberts' statement in the broadcast that nothing is going to
change in the FBI, Jordan said that to the extent that it was a reflection on him,
Roberts was wrong. Jordan said he had told the FBI Director that he would "play
this job straight up, like every other job I've ever had." Jordan added that no one
in the organization could make him "cover up," and anybody who saw Jordan
cover up anything had an obligation to go to the Inspector General.
      Jordan stated that it was difficult to talk about the 60 Minutes broadcast. He
said he thought highly of Roberts, that he had faith in his integrity, but that the best
of families have issuesand problems, and that the most dysfunctional family is the
one that doesn't talk about things.
      At that point, Jordan openedthe meeting to questions. One OPR employee
asked what the FBI Director's responsewas to the 60 Minutes interview. Jordan
said he did not want to speak for the Director but he believed the Director's
responsewould be the sameas his.
       A second OPR employee stated that Roberts' comments had stigmatized all
of OPR and had given all of OPR a bad name, and asked what they were supposed
to say when asked questions about Roberts' comments. Jordan responded that he
had no answer for that question. He said that many FBI employees were
wondering about "our integrity." Jordan said he had asked the Director if he could



                                          25
issue a rebuttal to 60 Minutes. Jordan said that 60 Minutes was not in the business
of telling "both sides," but the FBI had sent a letter to 60 Minutes.
       A third employee asked if there had been any discussion about how to
remove people from their job who had been in it too long and had lost their
effectiveness. According to most attendees,Jordan gave no responseto this
question.25
        A fourth employee stated that OPR now had a double responsibility to prove
its integrity, and related this situation to the ongoing crisis within the Catholic
Church.
      Jordan endedthe meeting by saying that it was not true that he and the
Director could not fix things, that he had only beenhere for two months, and he
askedthe OPR employeesto give him a chanceto make things better. He then
statedhe loved being their boss.

     c.     Brenda Roberts
      Roberts' wife, Brenda, said that at the all-employees meeting, she became
upset by what Jordan was saying and began feeling very warm and very sick. She
stated that she could not believe that Jordanwas "destroying" her husband in front
of everyone. She said she did not think shewould physically make it through the
meeting and thought she would pass out. Another employee, who saw her hand
shaking, held her hand during the meeting. Brenda Roberts said that everyone kept
looking over to her and she tried to maintain her composure.
       She said there was a solemn atmosphereafter the meeting, and another
employee asked her if she was okay. Shereplied that not one person came to
Roberts' defense during the meeting. She said she then collapsed at a desk while
leaving the meeting, and began sobbing. Another employee brought her cold
towels. Brenda Roberts said that shebegan walking back to her office, but she
started breathing rapidly and her head was hot. She then went t9 the FBI's Health
Services Unit. She said her blood pressurewas very high, and she remained at the
Health Services Unit until her blood pressurewent down. She said she then
returned to work, but she found herself crying repeatedly.


    25Brenda Roberts stated that Jordan responded,"Good point, let me think about that." One
other person said he responded something to the effect of "good question." No one else told us
they recalled Jordan responding at all. Jordan stated he was non-responsive to the question.




                                              26
      D.
      Both Brenda Roberts and John Roberts told us that after the all-employees
meeting they believed there was a change in attitude towards them by CPR staff.
John Roberts stated that he believed his professional standing was severely
damaged by Jqrdan' s comments, which were relayed to him by other employees.
He said people looked away or down when he passedthem, and there was no small
talk. He said that it appearedto him that CPR employeeswere uncomfortable with
him, and that the mood in the office toward him was very cold.
       Brenda Roberts also stated that since the all-employees meeting there has
been a chilled atmospheretoward her and employeesavoid looking at her. She
said that since the meeting she found herself looking at the floor when walking in
the halls, and other employeeswho normally spoke to her now avoided her.
       Others we interviewed, however, denied that they have treated Roberts or his
wife differently. They said that Roberts continued to handle his responsibilities the
sameas before the 60 Minutes broadcast,and he was treated by other staff
similarly to before the broadcast. Many said that Roberts remained upbeat and
positive in the office, and that they did not witness any changesin his demeanoror
how others treated him. Some said that Brenda Roberts talked less to others. One
said that after the 60 Minutes interview, Brenda Roberts seemedmore withdrawn
and that people have not ignored her but have respectedher desire not to talk.

VI.        APPOINTMENT OF AN ACTING DEPUTY ASSISTANT
           DIRECTOR IN OPR
      As noted above, the FBI OPR Deputy Assistant Director (DAD) position
had been vacant since the former DAD retired in March 2002. Shortly after
assumingoffice, Jordan requestedpermission to fill the position. He received
permission to advertise for the position, and the position was posted on
November 6, the day of the all-employees meeting. At that meeting, Jordan
announcedthe posting of the DAD position. However, he did not disclose or
discuss with any employee that he intended to fill the position on an acting basis.
      On November 12,2002, in an electronic communication to all OPR staff,
Jordan announcedthat he was appointing Brian Fortin to be the Acting DAD until




                                         27
the position was filled pennanently.26Fortin said he was unaware that an Acting
DAD would be appointed until Jordannamed him to the position.
      Jordan told the OIG that until the pennanent DAD position was posted, he
could not appoint an Acting DAD, since the position did not "exist" according to
the FBI's Administrative ServicesDivision. He said that when he received
permission to post the pennanentposition, he decided to appoint an Acting DAD,
becausehe thought it would take 90 to 120 days to get a pennanent DAD in place.
He said that he chose Fortin to be the Acting DAD becausehe was well respected,
was an attorney, and was actively seekingpromotions, including positions outside
ofOPR, and that Fortin's having the Acting DAD position could help him further
his career. Jordan said one of his critical rating elementsis to support the
development of subordinates. Jordan said he advised Fortin that he would not look
to appoint him to the pennanentposition, but that this temporary appointment
would provide Fortin with invaluable experience in being considered for a
promotion.
       We asked Jordan why he did not selectRoberts to fill the Acting DAD
position, since Roberts was the most senior Unit Chief in OPR and had been
assignedto be the Acting Assistant Director when Jordan had gone on leave two
times before the 60 Minutes broadcast. Jordanrespondedthat he knew that
Roberts was not seekingpromotion. Jordan told us that in approximately late
Septemberor early October 2002, he had briefed Director Mueller about various
issues in OPR, including Jordan's naming Roberts as an Acting AD in Jordan's
absence. Jordantold Director Mueller that Roberts had previously informed him
that he had beenpassedover for transfers and promotions, and that becauseof
historical events Roberts believed he would not be given a fair opportunity for
advancement. Director Mueller informed Jordan that he wanted to seeRoberts'
name in a "package" for promotional opportunities and askedJordan to relate that
to Roberts on the Director's behalf. Jordan said he told Roberts about the
Director's comments, stating that although Jordan was not looking for Roberts to

    26Fortin has been employed by the FBI since 1989. From 1990 to 1997, he worked as a
special agent primarily on domestic terrorism and international terrorism casesin the New York
Field Office. From August 1996 through February 1997, he served as an Acting Supervisory
Special Agent in the New York Field Office. In April 1997, he was transferred to FBI
Headquartersto work casesin the International Terrorism Section. In January 2000, he became
an Assistant Inspector in the Inspection Division. In December 2000, Fortin becamethe Unit
Chief of OPR' s Adjudication Unit I.




                                              28
leave OPR, the Director had openedthe door for him to seekpromotions, ifhe
wanted. Jordan said that since that time, however, he was not aware of Roberts
applying for any promotions.
       Jordan acknowledged to us that the 60 Minutes interview had an impact on
his decision to select Fortin as the Acting DAD. Jordan told us that he believed if
he selected Roberts for the Acting DAD position "during this post-60 Minutes
environment, it could have a negative impact on OPR." Jordan also stated,that
Roberts had been the Acting AD for several weeks during Jordan's absence and
had the opportunity to open cases, but Roberts "chose not to do that"; rather
Roberts went on television and said "we're corrupt." Jordan said he felt that
Roberts "had his shot at being promoted," but that Roberts diminished the ability
of OPR to do its job by his statements on 60 Minutes.
       Jordan said he did not consult anyone regarding his choice of Fortin for the
Acting DAD position. He said he did not believe this was a "big call," and was an
easy managerial decision. He said he did not consult with his supervisors,
Gebhardt and Lowery, who were busy handling important FBI matters. Jordan
also said he did not discuss with any of his Unit Chiefs why they were not picked.
       Roberts told us that he considered it significant that he was not made the
Acting DAD. He noted that prior to the 60 Minutes broadcast, he had been
appointed Acting Assistant Director on two occasions and was never criticized for
his performance in that position and, in fact, understood that Jordan was pleased
with his performance.
       Roberts said that no one talked to him about the position before Fortin's
selection. Roberts said that he had no idea that Jordanplanned to fill the position
on a temporary basis. He said that the information he had received from Jordan
prior to Fortin's appointment led him to believe that this position would not be
filled with an Acting DAD. Roberts also noted that Fortin was junior to him both
in tenure within the FBI and time within OPR, and that unlike Roberts, Fortin had
not had field supervisory experience. Roberts said that he believed being named
Acting DAD would have been significant becauseit would have enhancedhis
credibility and his ability to obtain a promotion.
       Roberts said that he had last applied for a promotion a couple of years ago.
He said becauseof his age and his ability to retire in a year, he thought there was
no benefit in applying for ASAC positions now. He said that an ASAC position
would be a lateral move with no increasein pay and he would have to remain in
that position for a couple of years before he could realistically be promoted again.


                                         29
He said he had considered applying for DAD positions at FBI Headquarters,but he
did not specifically mention this to Jordan during any of their conversations. He
added that he did not apply for the permanentFBI OPR DAD position becausehe
thought that would be a fruitless exercise on his part, in light of the reaction to the
60 Minutes interview, his not being named Acting DAD, and his involvement in
the Ruby Ridge and Potts investigations.
       No one in FBI OPR to whom we spoke had been consulted or was aware
that an Acting DAD would be appointed. Fortin said Jordan did not tell him why
he was selected. Many people we interviewed in OPR were surprised that Fortin,
rather than Roberts, was selectedto be the Acting DAD. They stated that they
thought that Roberts, as the most senior OPR Unit Chief and the person who
served as the Assistant Director in Jordan's absence, would have been selected for
the position.27

VII.      OIG ANALYSIS
       Based on the evidence we found, we do not conclude that Jordan or other
FBI officials intended to harassor threatenRoberts for his statementson
60 Minutes. We also do not conclude that the evidence supports many of the
allegations about Jordan's and the FBI's actions towards Roberts after the
60 Minutes broadcast. However, we conclude that some of the allegations were
substantiatedand we believe that Jordan exhibited poor judgment in several
instances, particularly several of his statementsat the OPR all-employees meeting.
In addition, we believe that Jordan passedover Roberts for the Acting DAD
position in large part becauseof Roberts' statementson 60 Minutes, an action that
left the clear appearanceof retaliation.
       With regard to the meeting betweenRoberts, Jordan, and Lowery on
October 29, we have little doubt that the meeting was tense and that it was
apparentthat Jordan was angry about Roberts' statementson 60 Minutes. We
believe that Jordan clearly communicatedhis belief that the statementswere a
"slap" at him (and the FBI Director). Jordan objected to the broadcast's
implication that casescontinued to "disappear" and "vaporize," that a double
standard of discipline would continue no matter who was in charge, and that there

       27Several OPR employees mentioned that Roberts' unit had a backlog of cases,and they
thought it would be counterproductive for Jordan to selectRoberts to be the Acting DAD in light
of the backlog.




                                               30
were cases since September 11 where FBI employees who had committed
misconduct "were not reprimanded and were even promoted." Jordan told us that
he thought that Roberts had either lied or deliberately misstated facts on the
60 Minutes broadcast. Although the October 29 meeting may have been
"businesslike" (as Jordan d~scribed it), and no one may have raised his voice or
uttered a "cross word" (as Lowery described it), we have no doubt that Roberts
understood Jordan was upset with him.28
        However, we do not believe that Jordan or Lowery threatened Roberts, and
we do not conclude that Jordan stated in the meeting that he was referring Roberts
to the OIG on misconduct charges, as Roberts believed at the time. Roberts told us
that at the October 29 meeting, after Jordan read from the transcript of the
broadcast and while holding the transcript in his hand, Jordan said he was referring
"this" to the OIG. We think there was a miscommunication between Roberts and
Jordan about the "this" that Jordan was referring to the OIG. Roberts interpreted
Jordan's statement as accusing him of misconduct and that his actions were being
referred to the OIG; Roberts therefore responded that he had done nothing wrong.
In fact, Jordan and Lowery intended to, and did, refer Roberts' allegations that
cases disappeared or vaporized to the OIG for review; they were not referring
Roberts to the OIG for misconduct.
       When Roberts received the referral letter the next day, he was surprised to
learn that he was not being referred to the GIG for misconduct, and that the GIG
was being askedto review Roberts' allegations. Roberts then told Jordan that he
had thought Jordan was going to report him to the GIG. This was a
misunderstanding on Roberts' part.
       We also believe that there was a difference in what Roberts intended by his
statements aired on 60 Minutes and the implication they left. Roberts told us that
with regard to his statement that he knew "what has been glossed over and what
has, frankly, just disappeared, just vaporized and no one disciplined for it," he was

      28Roberts also contended that animus directed at him from Jordan and Lowery would not
have occurred without the concurrence of Director Mueller. For example, Roberts stated he
doubted that Jordan would have told him that the Director had been "dissed" by his comments
unless Jordan had first-hand knowledge of the Director's opinion. Roberts also noted that Jordan
invoked the Director's name in responseto a question at the all-employees meeting. However,
we found no evidence to substantiatethe claim that Director Mueller had any animus towards
Roberts or communicated to Jordan that he agreed with Jordan's position about Roberts'
statementson 60 Minutes.




                                              3
referring not to the actual investigations of cases by OPR, but rather to the
adjudication of discipline. He cited Ruby Ridge and the Potts retirement party as
prime examples of cases where he believed discipline in a case had "disappeared."
However, both of these cases occurred before Jordan was appointed to head the
FBI OPR and before Director Mueller joined the FBI.29
        Roberts then was asked on the 60 Minutes broadcast about a double standard
of discipline, which Roberts believes to be a continuing and intractable problem.
Roberts stated on the broadcast that he thought that the double standard of
discipline would continue "no matter who comes in." Then, when asked whether
"people were involved in misconduct and were not, let alone reprimanded, but
were even promoted," Roberts responded "absolutely." However, Roberts told us
he did not mean to imply that investigations of cases continued to "vaporize," but
he does believe that within the FBI there still exists a "club atmosphere" that does
not seem to allow for change. He said that there was a continuing difference
between higher level and lower level FBI employees in how cases were
adjudicated by the FBI and how people were promoted, even when under
investigation or after being disciplined. He cited as examples of this the SAC case
mentioned earlier in this report and several other recent cases. He told us that he
did not believe that Director Mueller, Jordan, or FBI upper management could
change that double standard. 30

      However, the juxtaposition of Roberts' comments on 60 Minutes that he
knew of cases that "disappeared" with his claims about a continuing double
standard of discipline left the clear impression that he believed investigations of
misconduct continued to disappear and that he was implicating Jordan and Director


    29The OIG currently is reviewing cases cited by Roberts to the OIG as showing a continuing
double standard of discipline in the FBI.
    30We reviewed whether Roberts had informed Jordan before the 60 Minutes broadcast about
his concerns regarding the handling of the SAC case. As discussed above, we found that Roberts
had sent a routing slip to Jordan on October 17 describing Roberts' concerns about what he
perceived as a difference in treatment between the SAC's discipline and the discipline for an
agent who Roberts believed had made similar comments. Roberts also mentioned this issue to
Jordan during their discussions on October 29 and 30, and Jordan responded something to the
effect that this had not occurred on his watch. Jordan acknowledged to us that he had seen the
routing slip previously, but he stated that the SAC case was not pending and that he thought the
agent's comments were more egregious than the SAC's comments. This case is one of the cases
the OIG is in the process of reviewing.




                                               32
Mueller in continuing cover-ups. We can understandJordan's concern about the
implication left by the 60 Minutes broadcastthat he and OPR were complicit in
allowing casesto disappear, particularly since Jordan was new to OPR.
        We believe it was not improper for the FBI to refer to the OIG the
allegations Roberts made on 60 Minutes, given the seriousnessof the charges. In
fact, this was a prudent step for the FBI to take, in light of the conflict it would
present for the FBI to investigate those claims itself.
      With regard to the FBI's rebuttal letter to 60 Minutes that it posted on the
FBI Intranet site, we do not believe there was anything improper about the letter or
the posting. In the letter, the FBI respondedto the program without attacking
Roberts. We do not criticize the FBI for making its position known, either to FBI
employees or to 60 Minutes.
       With regard to the November 6 all-employees meeting, we do not believe
that Jordan intended to retaliate againstRoberts or attemptedto threaten or
undercut him by discussingthe 60 Minutes program at the meeting. Nor do we
fault Jordan for discussingstatementsfrom the program with OPR staff, who were
understandablyconcerned about the implication of the program. As to Jordan's
remarks at the meeting, we think most of them were not inappropriate. By and
large, we think Jordan did not crossthe line in what he said or make retaliatory
statementstowards Roberts. Most of the OPR staff we interviewed did not
interpret Jordan's remarks as retaliatory to Roberts, and most appreciatedthat
Jordan addressedthe 60 Minutes broadcastwith them.
       For example, we do not conclude that Jordan's reference to the FBI as a
"family" was intended to send a messagethat no employee should raise allegations
of misconduct or criticize the FBI to outsiders. Almost everyone we interviewed
stated that this phraseis commonly used throughout the FBI, and they read no
sinister meaning from Jordan's use of the term. The FBI employeeswe
interviewed did not believe he was using the phraseto warn them not to go outside
the FBI or that he was threateningthose who did. We also did not substantiate,as
was alleged, that Jordan read the 60 Minutes transcript in a disgusted tone, or that
he showed distaste for Senator Grassleywhen referring to him.
      However, we concluded that Jordan exhibited poor judgment with regard to
severalaspectsof the November 6 meeting. First, with regard to the timing of the
meeting, Jordan learned that Roberts could not attend the meeting on November 6
becausehe was on sick leave that day. The meeting had been scheduled originally
for Thursday, November 7, but becauseJordan was scheduledto be on leave on


                                         33
November 7 and 8, he moved the meeting up one day. At the Unit Chiefs' meeting
on the morning of November 6, Jordan disclosed that he intended to discuss the
60 Minutes program at the all-employees meeting later that day. At that time, he
learned that Roberts was not in the office that day. In response to a suggestion
from a Unit Chief, Jordan asked a subordinate in Roberts' unit to notify Roberts of
the meeting and offer him the opportunity to participate by speakerphone.
        We believe that Jordan should have talked to Roberts personally about what
he planned to discuss at the all-employees meeting.3l We also think Jordan should
not have discussed this topic at a meeting that Roberts could not attend. While
Jordan said he did not want to wait another month to address the issue, and he did
not want to call a special all-employees meeting to address the 60 Minutes issue by
itself, he could have rescheduled the all-employees meeting for a few days later-
the following week -when both he and Roberts would be in the office.32 We agree
with Kiernan's suggestions to Jordan that he wait until Roberts was back in the
office to have the meeting, and that offering Roberts a chance to participate by
speakerphone, even ifhe were available, was not the same as him being there.
       Second,we believe that it would have been prudent for Jordan to consult
with FBI officials before the all-employees meeting to seekguidance on what he
could and should say. The meeting presenteda sensitive situation and Jordan
neededto choosehis words carefully. We believe that Jordan would have been
wise to seekguidance from the FBI Office of GeneralCounsel. Although Jordan
informed his supervisor, Lowery, that he intended to addressthe broadcast at the
meeting, he soughtno guidance or legal advice on what he planned to say. While
we do not suggestthat a managermust always seek legal guidance before
addressinghis staff, this situation was particularly sensitive and presentedunusual
issues,and Jordanwould have been well advised to seek legal guidance.
      Third, we are concerned about a statement Jordan made -both to Roberts on
October 29 and during the all-employees meeting on November 6 -that "he who
creates ambiguity shall have that ambiguity resolved against him." It is not clear
what Jordan meant by this statement, or what Jordan was implying about what the

    31Jordan told us he did not call Roberts becausehe thought that further conversation with
Roberts about the 60 Minutes broadcast"would add fuel to the fire."
   32Jordan told us that he consideredputting off the meeting until the following week, but that
concern in OPR about the program was "mounting." He said he did not want to have a staff
meeting that talked about anniversariesand birthdays but "ignore[ d] the elephant in the room."




                                               34
"resolution" against Roberts would or should be. Jordan told us that Roberts'
inference that OPR was not "on the level" was an ambiguous statement that could
not be supported. Jordan said his quote was not a threatening statement, but a
comment that "the one who creates language is responsible for the conclusions or
reasonable inferences drawn from that language." Jordan said his anticipated
"resolution is that the truth will come out and that John Roberts will have to
answer in some forum for what he said to millions of CBS viewers. Simply, the
resolution is the truth."
      Yet, Jordan's statementimplied that Roberts would have some action
resolved againsthim. Although Jordan stated that he meant that the resolution of
Roberts' statementson 60 Minutes was simply that the truth would ultimately
prevail, that inference is not at all clear. Rather, a reasonableinference from
Jordan's statementwas that some action would be taken againstRoberts for his
comments on 60 Minutes. We question Jordan's use of this statement,which itself
was ambiguous.
       Fourth and evenmore troubling was Jordan's lack of responseto a question
at the all-employees meeting about whether there had been any discussion about
how to remove people from their job who had been in it too long and had lost their
effectiveness. Clearly, this questionreferred to Roberts. According to multiple
witnesses, Jordandid not respond to the question. In our view, this lack of
responseleft the impression that Jordan agreedwith the statementor, at a
minimum, did not repudiate it. Instead of saying he had no intention of forcing
Roberts to leave OPR, Jordan said nothing.33
       Finally, we believe Jordan's selection of Fortin to be the Acting DAD, and
particularly the time and manner in which Jordan made the selection, left the clear
appearance of retaliation against Roberts for his statements on 60 Minutes ,34


    jj Jordan also had not repudiated an OPR employee's e-mail earlier in the week expressing a
similar sentiment. The employee's e-mail suggestedsurprise that someone with so little faith in
the OPR process could be allowed to continue to play such an instrumental role in OPR. Jordan
responded to the e-mail with a vague statementthat the writer's observations were accurate and
probably reflected the opinions of others. ~ footnote 19.
      34As a First Amendment issue and under the Whistleblower Protection Act, courts and the
Merit System Protection Board have analyzed casesin which public employeeshave suffered
adverseconsequencesfor critical statementsthey made about their employers. ~,~,
Pickering v. Board of Education, 391 U.S. 563 (1968); Oliver v. D~'t of Health and Human
~,      34 M.S.P.R. 465 (1987). (The Whistleblower Protection Act does not apply to most FBI
(continued)

                                              35
Before the broadcast, Jordan had selected Roberts twice to be the Acting AD in his
absence. Roberts also was the most senior Unit Chief in OPR. However, shortly
after the 60 Minutes appearance, and just after the all-employees meeting, Jordan
selected Fortin to be the Acting DAD while the permanent position was being
filled. Jordan said he selected Fortin because he was an attorney, was well
respected, and was seeking promotions.
       Yet, Jordan acknowledged that Roberts' 60 Minutes interview affected his
choice. For example, Jordan stated to us that he believed that if he selected
Roberts for the Acting DAD position "during this post-60 Minutes environment, it
could have a negative impact on OPR." Jordan added that Roberts had been the
Acting AD for several weeks during Jordan's absence and had "a shot at being
promoted" and had the "opportunity to open cases," but Roberts "chose not to do
that" and instead went on 60 Minutes and said "we're corrupt."
       Before making his selection of Fortin, Jordan did not detemrine whether
Roberts, or anyone else in OPR, was interested in the position. After the selection,
Jordan did not discuss with Roberts, or anyone else, why he selected Fortin instead
of Roberts. Many of the OPR employeeswe interviewed told us they were
surprised that Jordan had selectedFortin for the Acting DAD position, not Roberts,
the most senior Unit Chief and the personwho had filled in as the Acting Assistant
Director for Jordan in his absence. Severaltold us it appearedto them the
selection was in retaliation for the 60 Minutes interview.


 (continued)
employees,but therearesimilar regulationsaddressingallegedretaliationin the FBI. ~ 28
C.F.R.Part 27.) Accordingto this caselaw, the interestsof the employeein speakingout about
mattersof public concernarebalancedagainstthe employer'sinterestin promotingthe
efficiencyof the public agency.As describedby the SupremeCourt, pertinentconsiderationsin
conductingthis balancinginclude "whetherthe statementimpairsdisciplineby superiorsor
harmonyamongco-workers,hasa detrimentalimpacton closeworking relationshipsfor which
personalloyalty andconfidencearenecessary,or impedesthe performanceof the speaker's
duties or interfereswith the regularoperationof the enterprise." Rankinv. McPherson,483 U.S.
378,388 (1987). Roberts'statementsclearlyaddressed      a matterof public concern,sincethe
issueof the FBI's investigationand adjudicationof allegationsof misconducthasreceived
significantpublic attention. On the othersideof the equationis the considerationof the FBI in
promotingthe efficiencyof its operation.We believethe balancein this casewould be a close
question. However,whetheror not Jordan'sselectionof Fortin ratherthan Robertswould be
deemedto constituteretaliationin a legal sense,we believethe way Jordanhandledthe
appointmentleft the clearappearance   of retaliationagainstRoberts.



                                             36
       In sum, we recognize that the statementsby Roberts on 60 Minutes
complicated Jordan's selection of someoneto fill the Acting DAD position.
However, we believe Jordan's selection of Fortin, including the timing of it and the
way it was handled, left the clear appearanceof retaliation against Roberts.

VIII.    CONCLUSION
       We do not believe that Jordan intended to threaten or harassRoberts for his
statementson 60 Minutes. We also do not believe that it was improper for Jordan
and Lowery to refer the allegations Roberts made on 60 Minutes to the OIG for
review. Nor do we conclude it was improper for Jordan to addressthe 60 Minutes
interview at the all-employees meeting.
       Yet, while most of Jordan's statementsat the meeting were not
inappropriate, we believe he exhibited poor judgment in severalrespects. We
believe that he should have attemptedto schedulethe meeting when Roberts could
attend or at least personally told Roberts about the meeting and what he intended to
say. We also believe he would have beenwise to seekguidance about the meeting
and what he could and should say about the 60 Minutes broadcast. We question
the appropriatenessof Jordan's statementat the meeting that "he who creates
ambiguity shall have that ambiguity resolved againsthim." Even more troubling
was his lack of responseto a question that suggestedthat Roberts should be
removed from OPR. Finally, we believe Jordan's selection of another Unit Chief
to be the Acting DAD, including the timing of it and the way it was handled, left
the appearanceof retaliation againstRoberts for his statementson 60 Minutes.

         1 ill fO)                            )It-    a~
        Date                              Glenn A. Fine
                                          Inspector General




                                         37
                      PAip,IC~J. LEAHY.VEI\MCNT.CH_;R"'.!.~J
ED\",...~Drw1.
            ~ENNED'f.MA~SA::HUSE1T..       CPR/I'!G. hAiCH. UTAH
JCSE:'H R eIDEN. JR., DELAWARE            S'iRCIt1 THUMr";vND. SOUt}i CAROLlr:A
Hefi2~RT ,<.':104\.,
                 V.lISCO~S!N              C1'!AflLES E. GRASSLE¥,IOV..A
~IAt-jN=FE;1\;5TEIN.
                   CAL:F,::R~IA           AFiLENSPErnH. P£I~NSYl.VANIA
FL:SSELLD. FeINGOLD,WI$CONSIN             JC~I:<Vt..A~rz.ONA
C~.ARU:SE. SCHUMEJI.NEWYORK               f.'IKE CEWINE.OHIO
RIC~ARDJ. DURBIN.ILUNOIS                  JEFFSESSIONS,   ALABAMA
MARIA CANi'NELI.   WAS~INGTON             $.\f.1 5;,OWNBACI<, ~NSAS
JOHNEDWAROS.NORTHCAROLINA                 "'iITC~ MCCONIJELL.
                                                           KENTUCKY,              COMMITTEE ON THE JUDICIARY
                                                                                  WASHINGTON. DC 2051~2i5



         November8, 2002

        The HonorableRobertS. Mueller, ill
        Director
        FederalBureauof Investigation
        935 PennsylvaniaAvenue,NW
        Room 7142
        Washington,D.C. 20535

        Dear Dire-;torMueller:

        We write to alert you of allegations that seDiorofficials at t..~eFederal Bureau of mvestigation
        (FBI) have taken retaliatory actions againsfUnit Chi:f ("UC") John Roberts, of the FBI's Office
        of Professional Responsibility (OPR) and his wife after his FBI approved appearanceon the CBS
        ne~.s show "60 Minutes," "\vhichwas broadcastSunday, October 27.

        The salient allegations are that Robert J. Jordan, Assistant Director ("AD") of the Office of
        Professional Responsibility and Executive Assistant Director ("EAD") W. Wilson Lowery, Jr.,
        two members of your new managementteam, engagedin a courseof retiliatory action against
        UC Roberts in the ten days since his televised appearance,in which he discussedcontinuing
        problems at the FBI.

        As you know, UC Roberts has a record of decadesof distinguished and unblemished service at
        the FBI, including testimony before the SenateJudiciary Committee regarding someoftl1e issues
        that you agreed needed attention at your confimlation hearings as FBI DiIector. Among tl1emost
        disturbing aspectsof the recent allegations, then, is that these senior FBI officials invoked your
        name in expressing displeasure at Roberts' recent criticisms of the Bureau in a public forum.

        Among otheractions,we have beentold that AD JordanangrilyconfrontedUC Robertsafterthe
        ""60Minutes" showairedand told him during a meetingthat his appearancewasa personalinsult
        ("a dis") to both he andto you. Then,on a daywhenUC Robertswas out sick, AD Jordanheld
        an all handsstaff meeting(includingUC Roberts'colleagues,subordinates,andhis \'sire,who is
        an employeein CPR) at which the transcriptoftbe "60 lvIinutes"programwasreadaloud. After
        readingthe transcript,AD Jordanstatedthatthe FBI ,vasa "family" (and by implicationthat
        problemsshouldbe handledh: private)and allegedlyfacilitatednegative commentsaboutUC
        Roberts by his colleagues,including at leastone commentindicating,in effect,thatUC Roberts
        be transferredfrom his post or fired, which AD Jordansaid shouldbe considered.We
        understandthat AD Jordanalso saidatthe meetingthatyou agreewith his assessment    ofUC
        Robertsandhis comments.UC Roberts''Wifewasso ~lpsetby the incident thatsherequiredbrief
        medical assistaDce  immediatelyafterthe meetingended.
T~e HonorableRobertS. Mueller, ill
N cvember8, 2002
Page2

In addition, EAD Lowery called UC Roberts to his office. \"";herehe and AD Jordan initiated an
aggressive and hostile conversation about his broadcastremarks. EAD Lowery and AD Jordan
angrily challenged UC Roberts to support his allegations \vith specific examples -an ironic
request since the FBI had approvedMr. Roberts public appearanceon the condition tllat he
refrain from discussing many oithe specific casesthat he knows of as the longtime head of tile
FBI's own Office o'fProfessional Responsibility. They then told UC Roberts that they were'
asking the Justice Department's Office of the Inspector General (OIG) to look into the matter and
\vrote the OIG a terse letter to that effect.

Although it might be possible in other casesto argue that a refelTa11etterbased on such
allegations to the IG is an appropriate course of action, it seemsdifficult to make that casein this
matter. UC's Roberts' comments were made in the public dom~ "Withprior FBI approval, and
neither UC Robcrts nor the DIG neededa formal letter of referral to follow up on matters within
DIG jurisdiction already. Viewed in light of the simultaneous informal efforts that FBI officials
\vere making to encouragea negative reaction to UC Roberts' actions, the refeualletter appears
to be an effort to sidestep responsibility for FBI missteps and to send a discouraging messageto
future employees Vv"ho  consider public criticism of the FBI.

The FBI also is trying to discredit UC Roberts by posting on the FBI's intranet a letter that
disputes UC Roberts' comments. The letter, from Michael Kortan in the Office of Public and
Congressional Affairs to "60 Minutes," is available for every employee in the nation to read a.,.d
observe how senior officials in headquartersreact to wmstleblowers and public criticism.

These actions have humiliated UC Roberts and his v.ire in front of their colle3gues and caused
him to fear for his job. Moreover, the reprisals potentially undernlinc UC Roberts' authority as
head of CPR's Internal Investigative Unit ll. Finally, and of equ3l importance for the future of
the FBI, these types of actions have a chilling effect on others who might make \vhistleblower
disclosures or truthftll yet critical comments to the media.

We urge you in the strongestpossible terms to ensure any retaliation ceasesimmediately, and
that appropriate corrective action is tal<enagainst anyresponsible officials. UC Roberts'
comments were certainly not flattering to the FBI, but they did not violate any ~tten code of
conduct. Indeed, his remarks were quite similar to his testimony before the SenateJudiciary
Con1Inittee in July 2001, and you have also ackno\vledged (in public settings) that such reporting
should be encouraged within the FBI.

UC Roberts' recent comments also echoedthe conclusions of the September I, 1999 study
entitled "FBI Senior Executive Service Accountability -A Higher Standard Or A Double
Standard?" This study, prepared by the Law Enforcement Ethics Unit of the FBI Academy,
concluded that: "The effects of disp~te disciplinarf action in tlle FBI bet'.veenlower-level
employees and senior m2Ilagementhashad and will continue-to have a SCVCl"C      dotrimental
The HonorableRobertS. Mueller, ill
November8, 2002
Page3

Impact."

We also note that your office is in possessionof a draft report from tile OIG that is critical of the
FBI for its double-standard in discipline, where senior bureaucrats get away with violations that
rank-and-fi1e agentsare severelypunished for. As you know, this GIG investigation hasits
origins, in part, in internal investigations that UC Roberts has conducted. Of course UC Robe11s'
contributions to this repol1 make him a target for further retaliation.

You have repeatedlypledged -bofu in public and personally to us in private -that you will not
tolerate retaliation against FBI wbistleblowel"S. hldeed, in sever~ response letters to us, you have
cited the November 7, 2001 memo that you sentto all FBI employeesstating that you will not
tolerate retaliation against whistleblowers. We urge you to follo".v through on these ~'ords ~ith
actions and take the appropriate corrective action against EAD Lowery and AD Jordan.

We hope that your actions in thjs and other critical matters in the FBI at tins time, including an
allegation ofretaliation againstan agentwho reported thefts from Ground Zero by FBI agents,
will bear out your prior pledges.

In light of these211egatio~.
                           pleaseanswerthe following questions:

1. \Vbatrole, ifany, did you havein the actionsdescribedabove?

2. Did AD Jordan in fact read from the "60 Minutes" transcript in front of all OPR employees?
Did EAD Lowery or any of Jordan's superiors instruct him to do that in any way?

3. Did AD Jord3n disclose that Roberts was representedby co\lnsel? Did E.A.DLowery or anyof
Jordan'ssuperiorsin anyway instructhim to do that?

4. Do you believ~ the actions ofE_W Lowery and AD Jordan are consistent with the letter and
spirit of your November 7, 2001 memo that statesyou do not tolerate reprisals against thosewho
expose wrongdoing inside the FBI?

5. We also requestthat you makeEAD Lower;yand AD Jordanavailableas soonaspossibleto
answerquestionsfrom our staff and otherinterestedstaff of oversightcommitteesaboutthis
matter.
      The HonorableRobertS.Mueller, ill
      November8, 2002
      Page4

      We look forward to your prc.mpt responseto thesequestions and any oth~r additional
      infonnation you \;ish to provide in this matter.



      Sincerely,



      ---          -

      p ..A_TRICKLEAHY
                       ~
      ChaiIman



      SpecialAgent JohnRoberts
      Unit Chief, Office of Professional Responsibility
      FederalBureauof Investigation              .

      The HonorableGlermA. Fine
      InspectorGeneral
      Departmentof Justice

      The HonorableOnin Hatch
      Ranking Member
      SenateJudiciaryCommittee

      The Honorable Frank Wolf
      Chairm2n
      House Appropriations Subcommittee on Commf..ce, Justice. Stateand the Judiciary

      The HonorableF. Ja.'nesSensenbrenner,
                                         Jr.
      Chainnan
      House JudiciaryCommittee




cc:
                                                     u "::'. D~parnnentof JU3t1ce

                                                     FederalBureauof Investigation


                                                     Washington. D.C. 20SJS

                                                      October8. 2002

 VIA TELECOPY
202/342-6980

Stephen M. Kohn
Kohn, Kohn & Colapinto
3233 P Street, N. W.
Washington, D.C. 20007-2756

       Re      Requestfrom 60 Minutes to Interview SoecialAQ:entJohn E. Roberts

DearMr. Kohn

        This is in responseto correspondencefrom your office dated October 4, 2002, indicating
that, based upon your advice, Special Agent JohnE. Roberts will be interviewed by 60 Minutes.
We understand Mr. Roberts will be asked to addressgeneralissuesregarding FBI culture and
will not be asked to comment upon confidential FBI mattersor open and pending investigations.

        As you know, your client executed an employment agreementwhen he entered on duty
with the FBI that applies to the disclosure of official FBI information. That agreementprohibits
disclosure (without prior approval from the Director or his delegate)of infoffi1ation obtained in
an employee's official capacity concerning the following:

        Information protected from agency disclosure by the Privacy Act;

        Information that is classified or the disclosure of which could otherwise harm national
        security;

        Infonnation that reveals sensitive law enforcement,intelligence, or counter-intelligence
        teclmiques, sourcesor methods; or that revealsthe sensitive, confidential, or proprietal"y
        techniques, sources,or methods of other agenciesor governmental entities;

        Information that would reveal grand jury material protected from disclosure by Rule 6( e)
        of the Federal Rules of Criminal Procedure;

        iuforrnation that would reveal the identity of a confidential source or inforn1ant;
StephenM. Kahn


         Information that relates to any sensitive operational details or the merits of any ongoing
         or open investigation, inquest, probe, prosecution,appeal, or case;

         Information that consists of the proprietary information of another, including trade
         secrets.
               ,

         Information pertaining to wiretaps or interceptsprotected or regulated by Title III (18
         U.S.C. §§ 2510-2520);                                           .


         Information pertaining to currency transactionreports regulated or protected by 31 U.S.C
         § 5319;

         Tax return information regulated or protected by 26 V.S.C. § 6103;

         Information protected from disclosure by any other Federal statute or regulation; and,

         Information exempt from disclosure under the Freedomof Infonnation Act (5 V.S.C. §
         552) unlessthe material is clearly already in the public domain.

                Your client, therefore, may be interviewed as long as he complies with the above-
noted restrictions. Any request for further information should be respectfully declined.

                                                         Sincerel'A-

                                                                  -Koftan
                                                                               /8,
                                                                             (/ I
                                                                                    L
                                                         Section Chief,
                                                         Public Affairs Section
                                                         Office of Public and CongressionalAffairs

  -John E. Roberts
    Unit Chief, Internal Investigative Unit II
    Office of Professional Responsibility
    Federal Bureau of Investigation

  -l{o    ~rt J. Jordan
    Assistant Director
   Office of P~.'"'fessiol1alResponsibility
    Federal Bureau of Investigation




                                                   -2-
SHOW:    60 Minutes

DATE: October 27. 2002



LOST IN TRANSLATION

ED BRADLEY. host:

Lost in Translation is the story of hundreds, if not thousands, of foreign
language documents that the FBI neglected to translate before and after
September 11 th because of problems in its language department, documents that
detailed what the FBI heard on wiretaps and learned during interrogations of
suspected terrorists. Sibel Edmonds, a translator who worked at the FBI's
language division, says the documents weren't translated because the division
is riddled with incompetence and corruption. Edmonds was fired after reporting
her concerns to FBI officials. She recently told her story behind closed doors
to investigators in Congress and to the Justice Department. Tonight she tells
her story to us.

(Footage of Edmonds and Bradley; FBI agents car.rying boxes out of house;
Edmonds and Bradley)

 BRADLEY: (Voiceover) Because she is fluent in Turkish and other Middle Eastern
languages, Edmonds, a 32-year-old Turkish-American, was hired by the FBI soon
after September 11 th and given top-secret security clearance to translate some
 of the reams of documents seized by FBI agents who, for the past year, have
 been rounding up suspected terrorists across the United States and abroad.

Ms. SIBEL EDMONDS: The first two months after the September 11 event, we--the
agents out there in--in--in New York, LA, other field offices, they were
working around the clock. And I would receive calls from these people saying,
'Would you please prioritize this and--and translate it?'
                                                     -
(Footage of Edmonds sitting at desk; Edmonds and Bradley)

BRADLEY: (Voiceover) But Edmonds says that to her amazement, from the day she
started the job, she was told repeatedly by one of her supervisors that there
was no urgency; that she should ta~;e longer to translate documents so that the
department would appear overworked and understaffed. That way. it would
receive a 'arger budget for the next year.

Ms. ECi~.10NDS: We were told by our supervisors that this was the great
opportunity for asking for increased budget and asking for more translators.
And in order to do that, don't do the work and let the documents pile up so we
can show it and say that we need more translators and expand the department.

BRADLEY: So you--you have FBI agents who are in the field relying on your
translation work in order to move their cases forward, and your supervisor is
saying, 'Slow down. Let the cases pile up'?

Ms. EDMONDS: Correct.

BRADLEY: I mean, how is it possible that the focus wasn't on terrorism,
particularly after 9/11?

Ms. EDMONDS: It was not. At least in that department,    it was not.

(Footage of Bradley and Edmonds)

BRADLEY: (Voiceover) Edmonds says that the supervisor, in an effort to slow her
down, went so far as to erase completed translations from her FBI computer
after she'd left work for the day.

Ms. EDMONDS: The next day, I would come to work, turn on my computer and the
work would be gone. The translation would be gone. Then I had to start all
over again and retranslate the same document. And I went to my supervisor and
he said, 'Consider it a lesson and don't talk about it to anybody else and
don't mention it.'

BRADLEY: What's the lesson?

Ms. EDMONDS: The lesson was don't work, don't do the translations. Go out and
spend two hours lunch breaks, you know. Go and--don't go and get coffee
downstairs. Go eight blocks away. Just chat with your friends. But don't do
the work because--and this is our chance to increase the number of people here
in this department.

(Footage of Edmonds sitting at desk; Grassley speaking at podium; Grassley and
Bradley)

BRADLEY: (Voiceover) Sibel Edmonds put her concerns about the FBI's language
department in writing to her immediate superiors and to a top official at the
FBI. Edmonds says for months, she got no response. She then turned for help
to the Justice Department's inspector general, which is investigating her
claims, and to Senator Charles Grassley because his committee, the Judiciary
Committee, has direct oversight of the FBI.

Did she seem credible to you? Did her story seem credible?

Senator CHARLES GRASSLEY (Republican, Iowa): Absolutely, she's credible.         And
the reason I feel she's very credible is because people within the FBI have
corroborated a lot of her story.

(Footage of woman working at computer; Kevin Taskasen speaking with woman;
prisoners at Guantanamo Bay; Taskasen; Edmonds and Bradley)

BRADLEY: (Voiceover) The FBI h&s conceded that some people in the language
department are una.ble to adequately speak English or the la..guage they're
supposed to be translating. Kevin Taskasen was assigned to Guantanamo Bay in
Cuba to translate interrogations of Turkish-speaking al-Qaida members who had
been captured after September 11th. The FBI admits that he was not fully
qualified to do the job.

Ms. EDMONDS: He neither passed the English nor the Turkish side of this
language proficiencytest.

BRADLEY: So that means if, for example, you had a--a terrorist detained at--at
Guantanamo who had information about an attack being planned in the future
against the United States, that person would not have been in a position to
translate that?

Ms. EDMONDS: Correct. He wouldn't.

BRADLEY: mean, that's hard to imagine.

Ms. EDMONDS: But that's the case.

(Footage of exterior of J. Edgar Hoover FBI Building; recovery effort at World
Trade Centerpombing in 1993; exterior of FBI Building; recovery effort at
World Trade Center bombing in 2001; GAO documents on foreign languages;
Grassley and Bradley)

BRADLEY: (Voiceover) Critical shortages of experienced Middle Eastern language
translators have plagued the FBI and the rest of the US intelligence community
for years. Months before the first World Trade Center bombing in 1993, one of
the plotters of the attack was heard on tape having a discussion in Arabic that
no one at the time knew was about how to make explosives, and he had a manual
that no one at the time knew was about how to blow up buildings. None of it
was translated until well after the bombing, and while the FBI has hired more
translators since then, officials concede that problems in ttie language
division have hampered the country's efforts to battle terrorism, and according
to congressional investigators, may have played a role in the inability to
prevent the September 11 th attacks. Earlier this year, the General Accounting
Office reported that the FBI had expressed concern over the thousands of hours
of audiotapes and pages of written material that have not been reviewed or
translated because of a lack of qualified linguists.

Sen. GRASSLEY: If--lf they got word today that within--in a little while, the
Hoover Dam was going to be blown up, and it takes a week or two to get it
translated, as was one of the problems in this department, you know, you
 couldn't intervene to prevent that from happening.

BRADLEY: So you think that this place does need an overhaul essentially?

Sen. GRASSLEY: It needs to be turned upside down.,

(Footage of exterior of FBI Building; FBI agent; foreign flags; Bradley)

BRADLEY: (Voiceover) In its rush to hire more foreign language translators
after September 11 th, the FBI admits it has had difficulty performing
background checks to detect translators who ri:ay have loyalties to other
governments, which could pose a threat to US national security.

Take the case of Jan Dickerson, a Turkish translator who worked with Sibel
  (Footage of Turkish Embassy; Edmonds and Bradley)

  BRADLEY: (Voiceover) ...she'd had a relationship with a Turkish intelligence
  officer stationed in Washington who was the target of that investigation.
  According to Sibel Edmonds, Jan Dickerson tried to recruit her into that
  organization, and insisted that Dickerson be the only one to translate the
  FBI's wiretaps of that Turkish official.

  What was her reaction when you didn't go along with--with her plan?




 BRADLEY: Threatened you?

 Ms. EDMONDS: Correct.

 BRADLEY: Did--did you take her threat seriously?




 BRADLEY: (Voiceover) Edmonds says that when she reviewed Dickerson's
translations of those tapes, she found that Dickerson had left out information
crucial to the FBI's investigation; information that Edmonds says would have
revealed that the Turkish intelligence officer had spies working for him inside
the US State Department and at the Pentagon.




BRADLEY: And she had not translated these--these--this information?

Ms. EDMONDS: No, she had marked it as 'not important to be translated.'




(Edmonds working; Edmonds and Bradley)

BRADLEY: (Voiceover) Edmonds says she complained repeatedly to her bosses about
what she'd found on the wiretaps and about Jan Dickerson's conduct, but that
nobody at the FBI wanted to hear about it. She says not even the assistant
special agent in charge.
Ms. EDMONDS: He said, 'Do you realize what you are saying here in your
allegations? Are you telling me that our security people are not doing their
jobs? Is that what you're telling me? If you insist on this investigation,
 I'll make sure in no time it will turn around and become an investigation about
you.' These were his exact words.

(Footage of FBI letter to Edmonds; Bradley)

BRADLEY: (Voiceover) Sibel Edmonds was fired this past March. The FBI offered
no explanation, saying in the letter only that her contract was terminated
completely for the government's convenience.

But three months later, the FBI conceded that on at least two occasions, Jan
Dickerson had, in fact, left out significant information from her translations.
They say it was due to a lack of experience and was not malicious.

(Footage of exterior of home; Chicago Tribune article; Grassley and Bradley)

BRADLEY: (Voiceover) Dickerson recently quit the FBI and now lives in Belgium
She declined to be interviewed, but two months ago, she told the Chicago
Tribune that the allegations against her are preposterous and ludicrous.
Senator Charles Grassley says he's disturbed by what the Dickerson incident
says about internal security at the FBI.

Sen. GRASSLEY: You shouldn't have somebody in your organization that's
compromising our national security by not doing the job right, whether it's a
lack of skills or whether it's intentional.

BRADLEY: Based on your experience, does the Sibel Edmonds case fall into any
pattern of behavior. pattern of conduct on--on the part of the FBI?

Sen. GRASSLEY: The usual pattern. Let me tell you, first of all, the
embarrassing information comes out, the FBI reaction is to sweep it under the
rug, and then eventually they shoot the messenger.

(Footage of John Roberts leaving building; Roberts and Bradley)

BRADLEY: (Voiceover) Special agent John Roberts, a chief of the FBI's Internal
Affairs Department, agrees. And while he is not permitted to discuss the Sibel
Edmonds case, for the last 10 years, he has been investigating misconduct by
FBI employees and says he is outraged by how little is ever done about it.

Mr. JOHN ROBERTS: I don't know of another person in the FBI who has done the
internal investigations that I have and has seen what I have and that knows
what has occurred and what has been glossed over and what has, frankly, just
disappeared, just vaporized, and no one disciplined for it.

(Footage of Robert Mueller speaking at podium; Roberts; Edmonds working;
Roberts and Bradley)

BRADLEY: (Voiceover) Despite a pledge from FBI director Robert Mueller to
overhaul the culture of the FBI in light of 9/11, and encourage bureau
employees to come forward to report wrongdoing, Roberts says that in the rare
instances when employees are disciplined, it's usually low-level employees like
Sibel Edmonds who get punished and not their bosses.
Mr. ROBERTS: I think the double standard of discipline will continue no matter
who comes in, no matter who tries to change. You--you have a certain--certain
group that--that will continue to protect itself. That's just how it is.

BRADLEY: No matter what happens?

Mr. ROBERTS: I would say no matter what happens.

BRADLEY: Have you found cases since 9/11 where people were involved in
misconduct and were not, let alone reprimanded, but were even promoted?

Mr. ROBERTS: Oh, yes. Absolutely.

BRADLEY: That's astonishing.

Mr. ROBERTS: Why?

BRADLEY: Because you--you would think that after 9/11, that's a big slap on the
face. 'Hello! This is a wake-up call here.'

Mr. ROBERTS: Depends on who you are. If you're in the senior executive level,
it may not hurt you. You will be promoted.

BRADLEY: In fact, the supervisor who Sibel Edmonds says told her to slow down
her translations was recently promoted. Edmonds has filed a whistle-blower
suit to get her job back, but last week, US Attorney General Ashcroft asked the
court to dismiss it on grounds it would compromise national security. And also
on the grounds of national security, the FBI declined to discuss the specifics
of her charges, but it says it takes all such charges seriously and
investigates them.

(Announcements)
                                                   u.s. Dcpartmcl1t of Justice


                                                   Federal       Bureau of In\Oestigation



                                                   \\:l5hillgtOIl,   D. C. 205_'5-(1001


                                                   October              30,      2002



     Honorable  Glenn A. Fine
     Inspector  General
     Department  of JusticeWashington,
                  D.C.
     Dear Mr.    Fine

                    On October 27, 2002, John Roberts,           a Unit Chief in
     our Office       of Professional    Responsibility      appeared in a broadcast
     of the CBS News program "60 Minutes."               During the broadcast,
     Unit Chief Roberts was interviewed            regarding    disparate
     disciplinary        treatment   for different    levels   of FBI employees.
     A full     transcript     of his comments is attached;        however, he is
     quoted as saying that:

                  "I don't    know of another person in the FBI who has done
     the internal     investigations    that I have. and seen what I have and
     that knows what has occurred and what has been glossed over and
     what has, frankly,       just disappeared,   just vaporized, and no'one
     disciplined    for it."

                 "I think  the double standard of discipline      will
     continue   no matter who comes in, ho matter who tries       to change.
     You--you   have a certain--certain   group that--that   will     continue
     to protect   itself.    That's just how it is."

                   "Depends on who you are.      you're     in the senior
     executive    level,  it may not hurt you .You     will   be promoted

                    Other comments later       in the interview      (also attached)
     indicate      his lack of confidence        in the ability    of this office     to
     address     these issues.       There is an implication       that improprieties
     have continued       since September 11, 2001.         Further,     these
     allegations      relate   to your draft       report concerning     an alleged
     double standard        of discipline    in the FBI.




If
Honorable   Glenn A   Fine


            These remarks raise serious     issues of concern to us.
Given the gravity    of his remarks, and his lack of confidence      in
this office   to address these issues,    we have directed   Unit Chief
Roberts to contact    your office  to provide aqditional    details.
Please contact   me if I can be of further      assistance in this
matter.

                                       Sincerely            yours,

                                       "/1     6..,   t   .,'
                                       !-"./ [l. c,LL'='i"~
                                                                 ;:hk     '


                                                                         ~1.--
                                       Rcb'bert J.              Jordan
                                       Assistant    Director
                                       Office    of Professional
                                          Responsibility

Enclosure
                                                   u.s. DepartmentofJustice

                                                   Federal Bureau of Investigation


                                                   Washing/"n. D.C. 205.15
                                                     Novemherl. 2002




Mr. Donllewltt
Executive Direetor
"60 Minutes"
525 W. 57'" St.
New York, N\'     10019-2901

Dear Mr. Hewitt

       I am concerned that Sunday's report on the FBI's foreign language translation program
may have left viewers with wrong impressions in several important areas.

        First, preventing terrorism is the top priority of the FBI. There is no greater locus or
urgency. Over the past two years, the FBI has doubled its linguist workforce and has
dramatically reduced or eliminated existing backlogs. Since 9/11, we've continued to
aggressively recruit and hire translators to keep pace with a workload increase of more than
50%. Moreover, the sameJanuary, 2002, General Accounting Office report referenced in the
story actually commendedthe FBI's foreign languageprogram's managementand strategic
planning as a model worthy of imitation throughout the government.

          Second, the FBI's security program for all employees and for employees and contractors
 in the language services program, in particular, is robust, and we are confident that safeguards
 are in place in the program to protect national security.

          Finally, contrary to allegations in your story, reports of employee misconduct are given
 high priority and exhaustively investigated, and punishment is imposed in an equal manner.
 While allegations of disparate treatment were raised in the early and mid-1990's, the FBI has
 implemented policies to protect against actual or perceived unfairness in the disciplinary process.
  Importantly, under Director Robert S. Mueller, any serious allegation of wrongdoing made
 .against an FBI employee is reviewed by the Departmentof Justice, Office of Inspector General -
  making it impossible for misconduct to be ignored, much less rewarded, as alleged in Sunday's
 report.
          I apprecIate thIs opportunity to clarIty some possible misconceptions and hopc that thIs
  can be brought to the attention of your viewers as soon as possible.




                                                            ,f'- J;L~
                                                               P. Kartan
                                                       Chief. Public Affairs Section
